<html>
<title> - ACTIVE ARMY, ARMY NATIONAL GUARD, AND ARMY RESERVE RECRUITING AND RETENTION PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-83]
 
   ACTIVE ARMY, ARMY NATIONAL GUARD, AND ARMY RESERVE RECRUITING AND 
                           RETENTION PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             AUGUST 1, 2007

                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS




                     U.S. GOVERNMENT PRINTING OFFICE

38-421 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  THELMA DRAKE, Virginia
PATRICK J. MURPHY, Pennsylvania      WALTER B. JONES, North Carolina
CAROL SHEA-PORTER, New Hampshire     JOE WILSON, South Carolina
                Mike Higgins, Professional Staff Member
                 John Chapla, Professional Staff Member
                      Joe Hicken, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, August 1, 2007, Active Army, Army National Guard, and 
  Army Reserve Recruiting and Retention Programs.................     1

Appendix:

Wednesday, August 1, 2007........................................    43
                              ----------                              

                       WEDNESDAY, AUGUST 1, 2007
   ACTIVE ARMY, ARMY NATIONAL GUARD, AND ARMY RESERVE RECRUITING AND 
                           RETENTION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
McHugh, John M., a Representative from New York, Ranking Member, 
  Military Personnel Subcommittee................................     2

                               WITNESSES

Bostick, Maj. Gen. Thomas P., Commander, United States Army 
  Recruiting Command, U.S. Army..................................     7
Dominguez, Hon. Michael L., Principal Deputy Under Secretary of 
  Defense (Personnel and Readiness)..............................     3
Rochelle, Lt. Gen. Michael D., Deputy Chief of Staff, G-1, U.S. 
  Army...........................................................     5
Vaughn, Lt. Gen. Clyde A., Director, Army National Guard.........     7

                                APPENDIX

Prepared Statements:

    Bostick, Maj. Gen. Thomas P..................................    82
    Davis, Hon. Susan A..........................................    47
    Dominguez, Hon. Michael L....................................    52
    McHugh, Hon. John M..........................................    48
    Rochelle, Lt. Gen. Michael D.................................    65
    Vaughn, Lt. Gen. Clyde A.....................................    77

Documents Submitted for the Record:

    Charts of the Army National Guard submitted by Lt. Gen. Clyde 
      A. Vaughn..................................................    95

Questions and Answers Submitted for the Record:

    Mrs. Davis of California.....................................   101
    Mr. Kline....................................................   102
    Mr. McHugh...................................................   101
    Dr. Snyder...................................................   102
   ACTIVE ARMY, ARMY NATIONAL GUARD, AND ARMY RESERVE RECRUITING AND 
                           RETENTION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                         Washington, DC, Wednesday, August 1, 2007.
    The subcommittee met, pursuant to call, at 2:20 p.m., in 
room 2212, Rayburn House Office Building, Hon. Susan Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon, everybody.
    Today, the subcommittee turns its attention to the closely 
aligned issues of military recruiting and retention. While the 
debate on the future of the war in Iraq is capturing much of 
the public's attention, those laboring to recruit and retain 
the high-quality force that is the bedrock of military 
readiness continue to perform their vital mission under great 
stress.
    The sound job market and the pressures of the war make this 
task incredibly difficult and it is incumbent on the Congress 
to be watchful and ensure recruiters and their managers have 
the necessary funding and tools to be successful.
    The one enduring lesson that the subcommittee has learned 
is that those funds and tools are ineffective if not delivered 
in a consistent and timely manner. Unlike many of the problems 
being confronted by the armed forces, the task of attracting 
people to the military cannot be achieved with increased 
spending at the 11th hour.
    Competing in the marketplace for people requires the 
consistent and early allocation of resources. It is the 
subcommittee's experience that every military recruiting 
failure in the last 20 years can be attributed to some degree 
to inconsistent and late allocation of funding to meet the 
challenge.
    This hearing today focuses on the Army because the 
subcommittee has observed that all three Army components have 
endured setbacks in their recruiting programs in recent months. 
It is no secret to anyone that recruiting and retaining a 
quality force is extremely difficult in today's environment. 
This is particularly true for the Army, given the larger 
numbers associated with their mission.
    However, a full understanding of the challenge seems to 
have not prevented funding from being a factor that has put the 
recruiting programs within all three Army components at greater 
risk. In an era where we have an urgent need to increase the 
strength of the Army and its reserve components, it is critical 
that we not make mistakes in funding recruiting programs.
    The subcommittee will be interested in hearing the 
perspectives of Department of Defense (DOD) and the Army on the 
issue of consistent and timely funding and a range of other 
important issues, to include recruit quality and recruiter 
misconduct as well.
    I am delighted to be here today to have this hearing.
    I want to turn to my colleague, Mr. McHugh, if you have any 
opening remarks?
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 47.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you, Madam Chair.
    First of all, let me join with you in welcoming our 
distinguished panel here today.
    As you noted, Madam Chair, this is a very necessary 
hearing. I would argue also a very timely hearing. We are 
nearing the end of 2007, and certainly I think it will be a 
useful update for the subcommittee on the recruiting and 
retention challenges still facing us. As you noted, Madam 
Chair, the most challenged of all the services in the United 
States military is that of the United States Army.
    I could add a number of concerns. First, end-strength, 
especially whether the active Army is going to be able to meet 
not only the fiscal 2007 authorized end-strength level, which 
is 512,400, but also that of the target that they have set, the 
518,400. That is a step, if you will, to stay on pace for the 
increase of the force that has been authorized by 2013, 
547,400.
    It is a cloudy question right now. As of June, as I 
understand it, the Army has a strength of 510,000; that is 
2,400 below the authorized end-strength and 8,400 below its 
active force growth objective.
    The Army Reserve appears to be headed in fiscal year 2007 
for another year when its actual end-strength will not even 
reach authorized levels. Obviously, without manpower growth, 
Army plans to build additional brigade combat teams (BCT) and 
support brigades will be jeopardized. Recruiting is always a 
challenge. The Army Reserve continues to miss its objectives.
    Moreover, I, along with many others, I am sure, were 
disturbed to hear retired General Jack Keane testify just last 
week before the Full Committee that the Army is not likely to 
meet its recruiting mission in fiscal year 2007. If true, any 
erosion in the Army's quality standards and congressional 
efforts to provide Army-unique recruiting authorities, we need 
to know what the Army and DOD are doing to ensure active Army 
and Army Reserve recruiting stays on track to attain, not only 
accession missions, but also contract goals.
    All of the questions that you have identified, Madam 
Chair--inappropriate funding strategies, inadequate planning, 
and on and on and on--are great, great concerns. We need to 
talk about those today to ensure that we, as a Congress, are 
doing both our oversight objectives and missions as are 
appropriate; but also, of course, to ensure that we are 
providing all in the services, but for the purposes of today, 
the Army components with the necessary ability to meet the 
great challenges that the brave men and women who wear the 
uniform of that great service are facing on our behalf.
    With that, Madam Chair, I would just ask that the rest of 
my written testimony be submitted in its entirety for the 
record, and yield back, and look forward to the panelists' 
comments.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 48.]
    Mrs. Davis. Thank you, Mr. McHugh.
    I might just mention that we are all a little challenged 
today by the schedule and by the votes, so there may in fact be 
some procedural votes coming up, or other votes, and we will 
try and plow through this as best we can.
    I wanted to just welcome our panel again, and introduce 
them: The Honorable Michael Dominguez, principal deputy 
undersecretary of defense, personnel and readiness; Lieutenant 
General Michael Rochelle, deputy chief of staff, U.S. Army; 
Lieutenant General Clyde Vaughn, director of the Army National 
Guard; and Major General Thomas Bostick, commanding general, 
United States Army Recruiting Command in Kentucky.
    Thank you all very much for being here.
    Secretary Dominguez, we look forward to your comments.

STATEMENT OF HON. MICHAEL L. DOMINGUEZ, PRINCIPAL DEPUTY UNDER 
         SECRETARY OF DEFENSE (PERSONNEL AND READINESS)

    Secretary Dominguez. Thank you, Madam Chair and 
distinguished members of the committee. It is a pleasure to be 
with you today.
    Let me begin by acknowledging an historic achievement that 
many, including some of our own experts, would have thought 
impossible a few years ago. We have taken an all-volunteer 
military to war. We have done it in a strong economy with 4.5 
percent unemployment. We often have asked that force and their 
families to do more on short notice. And through it all, we 
have manned this Nation's military with people far above 
average relative to their peers.
    Support from this subcommittee has been critical to our 
success. And the department, and particularly the Army, 
delivered this success even as transforms itself in design, 
location and mission focus. That context and the continuation 
of those challenges ought to serve as a context for this 
hearing.
    The Army is growing from fewer than 520,000 at the end of 
this year to about 547,000 five years from now. Within those 
numbers are major organizational shifts brought about by Army's 
migration to modular design, more and smarter units, and a 
design that allows more flexibility and more even burden-
sharing across the force.
    In turn, this requires a slightly higher proportion of 
officers, particularly captains and majors. And then naturally, 
this plan requires growth in officer accessions and the Army 
continued its move in that direction last year with the 
addition of 300 more officers annually. Initially, the Officer 
Candidate School (OCS) will generate the growth, while the 
longer lead-time sources like Reserve Officer Training Corps 
(ROTC) ramp-up to higher levels of officer production.
    Longer service commitments are being encouraged through a 
variety of programs to improve officer retention. More 
experienced officers soon will see a bonus program that now is 
in its final stages of development. The Army is making all the 
right moves to meet its increasing demand for officers.
    On the enlisted side, all active component services 
achieved their recruiting goals for July. The three reserves--
Army and Navy Reserve and Air Guard--fell somewhat short. We in 
the Office of the Secretary of Defense (OSD) monitor this 
progress carefully, and we engage with the military departments 
and services when we have cause for concern.
    As a result of these engagements, I am confident that our 
leaders are taking appropriate actions, and I am optimistic 
about ending this year on-target. An on-target finish for all 
Army components and for the Air National Guard is achievable, 
but it will be challenging.
    Over the longer term, meeting recruiting targets will 
remain challenging. The propensity to enlist is down. The 
willingness of coaches, teachers, counselors, and parents to 
commend military service to America's youth is lower than is 
good for our Nation and our military. The number of people who 
meet our enlistment standards is astonishingly low.
    Madam Chair, as we execute our difficult task in the months 
ahead, we need your help and the help of the Congress in four 
concrete ways.
    First, lend your voices to the chorus reminding the 
American people that service in our armed forces is a good and 
noble path and one that every citizen of our democracy ought to 
seriously consider.
    Second, ensure that our recruiters have access to America's 
youth equal to that afforded to colleges and to other 
employers.
    Third, support our efforts to develop, test, and deploy 
flexible, innovative recruiting and retention programs for this 
dynamic and challenging environment.
    And fourth, quickly approve the reprogramming request the 
Department has submitted so that we can properly fund the 
Army's large program.
    I will end my opening oral statement, Madam Chair, by once 
again reaffirming that our success in recruiting, fielding, and 
sustaining a high-quality force through almost six continuous 
years of combat is attributable in large part to this committee 
and the strong partnership between the Department and this 
committee that has endured over many years and over many 
Administrations.
    Thank you for your partnership and your many contributions 
to our all-volunteer force.
    [The prepared statement of Secretary Dominguez can be found 
in the Appendix on page 52.]
    Mrs. Davis. Thank you.
    General Rochelle.

  STATEMENT OF LT. GEN. MICHAEL D. ROCHELLE, DEPUTY CHIEF OF 
                     STAFF, G-1, U.S. ARMY

    General Rochelle. Chairwoman Davis, Representative McHugh, 
distinguished members of the committee, thank you for offering 
me once again the opportunity to appear before you. It truly is 
an honor.
    I appear before you today on behalf of America's all-
volunteer Army. Today, we have an Army of over one million 
strong proudly serving and growing to meet the demands of the 
current and future operational environment. With our focus 
today on recruiting and retention, I am prepared to discuss two 
of the Army's highest priorities with you.
    I will highlight where we have achieved successes and will 
request your continued support and flexibility to sustain and 
in some instances expand incentives and initiatives that will 
attract the quality young men and women who will join 
tomorrow's Army.
    This year marks the fifth consecutive year that the 
volunteer Army is at war. Even with our global commitments, we 
continue to grow the Army to sustain combat operations and 
defend our Nation's vital interests. Since the start of the 
global war on terror, we have of necessity grown the all-
volunteer Army by nearly 23,500 soldiers. America's patriotic 
men and women are answering the call to duty in an Army that 
has served the Nation's interests since before the Meuse-
Argonne.
    The reason we are able to grow and sustain our Army during 
a time of conflict is because of patriotic young adults who 
accurately see the Army as an opportunity to serve the Nation's 
vital interests, as well as providing themselves the bridge to 
a brighter future. In an ever-competitive market, the Army is 
faced with an even greater recruiting challenge than our sister 
services or those in the private sector, namely attracting 
quality young men and women in a strong economy, while engaged 
in persistent conflict.
    Today, with unemployment at an all-time low, communicating 
the value of America's Army as a place of dependable employment 
and noble service is no longer an effective communication. 
Additionally, given the dynamic of the private sector 
employment options and the likelihood of military deployment, 
many parents, teachers and coaches--commonly referred to as 
influencers--are discouraging even highly motivated prospects.
    Despite the challenges we face and will continue to face in 
the future, the Army continues to be successful overall in 
growing and maintaining the all-volunteer Army. In 2002, we 
began a landmark transformation from a division-centric force 
to a brigade-centric, highly mobile force. Along with that 
transformation came a need for additional manpower. Consistent 
with recent congressional authorizations, the Army will have 
grown its end-strength from more than 468,000 at the end of 
fiscal year 2002 to 518,000 at the end of fiscal year 2007.
    Congress also addressed the need for the added 
flexibilities to meet the challenges associated with growing 
the all-volunteer force, and this committee was a standout. As 
a result, we have boosted our recruitment efforts by 
establishing innovative approaches to enlistments nationwide.
    Despite a 7 percent drop since 2003 in youth propensity to 
serve, currently at an all-time historical low of 16 percent 
propensity, the Army has remained ahead of our annual targets 
or glide required to meet not only our year-end accession 
goals, but multi-year growth targets as well.
    As good stewards of our resources, I have directed that in 
no case do we trade quality for quantity. At the heart of most 
enlistments is a desire to serve our Nation, and we must be 
cautious as we develop new incentives not to trade that desire 
for monetary, educational, or other incentives. We don't 
require that every young soldier become a hero on the 
battlefield, but we do ask that every young American be 
presented an opportunity to respond to our Nation's call to 
duty.
    The all-volunteer Army is Army strong precisely because 
each American that joins our ranks chooses to do so. Enlistment 
is the first act of selflessness that develops young Americans 
into the courageous troops we all admire. We are leveraging the 
flexibilities you have given us to close fiscal year 2007 
successfully. We remain ahead of glide path to achieve our 
fiscal year 2007 recruiting mission, and I am reasonably 
confident that we can achieve that success in fiscal year 2008.
    An innovative program that offers future soldiers our next 
generation of incentives and has the capacity to expand our 
reach well beyond that of the Army College Fund of nearly 25 
years ago is the Army Advantage Fund. The Army Advantage Fund 
has the potential to attract the innovative, entrepreneurial, 
and values-based youth willing to accept the challenge. We ask 
for your continued support to implement this groundbreaking 
incentive, as well as establishing the vehicle with which to 
employ it.
    I will focus my next comments on retention, brief comments.
    Clearly, a key indicator of our soldiers' commitment and 
high morale is our retention rate. Active Army has achieved all 
retention targets for the past nine years. As a result, that 
can be directly attributed to the Army's leadership and the 
motivation of our soldiers to accept the continued call to 
duty.
    To man the future force, the Army must increase company-
grade officer retention to keep up with the structure growth 
driven by modularity. The Army has successfully grown the 
officer corps over the last several years through increased 
officer promotion selection rates and earlier pin-on points to 
captain and major.
    America's Army is strong. We value your continued support 
to ensure our Army is fully prepared to meet America's global 
commitments. To ensure our values, our values-based Army is 
prepared for the future. We need your continued flexibilities 
and support, as well as approval of the fiscal year 2008 
President's budget request to support maintaining and growing 
the Nation's Army.
    Additionally, I would urge that every member of the 
committee share the message of, first, a call to national 
service, and second, the great opportunities available in 
America's Army.
    In closing, I thank you for the opportunity to once again 
appear before this distinguished committee, and I look forward 
to taking your questions.
    [The prepared statement of General Rochelle can be found in 
the Appendix on page 65.]
    Mrs. Davis. Thank you.
    General Vaughn.

STATEMENT OF LT. GEN. CLYDE A. VAUGHN, DIRECTOR, ARMY NATIONAL 
                             GUARD

    General Vaughn. Chairwoman Davis, Representative McHugh, 
and distinguished committee members, it is an honor to appear 
before you as the director of the National Guard. I would ask 
that my statement be entered into the record, and I would just 
like to make just a quick couple of comments.
    We have had a historical year, as I think all of you know. 
Over the last 22 months, we have gained nearly 22,000 soldiers. 
The chart that you see in back of you portrays where we started 
at on the far left, called the bathtub chart. I can assure you 
that it is a real pleasure to appear before you today as 
compared with eight months ago, and then probably one and a 
half years prior to that.
    We promised at that time that we would make end-strength, 
and we did in March of this year as a result of the great 
support of this committee. It is a result of the great 
leadership of our adjutant generals (TAG) and our governors. 
But most of all, it is the support of each one of these 
communities out there that embrace and worship these units from 
nearly 3,000 towns and cities around the United States of 
America. There is an enormous amount of pride in the Army 
National Guard today.
    We have challenges, and our challenges exist in the areas 
of getting the base and the supplementals right to gear us 
through, and I am sure we will be able to discuss that soon. 
There were some assumptions made, as I think everyone here is 
aware of in here, a couple of years ago that started us down 
the wrong track, you know, in the position of our base budget. 
We are still recovering from that. We don't want to kill this 
momentum, and we want to go right on into 2008 positioned to 
grow.
    I think one of the great noticeable things, or notable 
things about this is we have actually improved our quality in a 
significant manner with innovative programs, a lot of support 
from over here, and a lot of pride in the force.
    So thank you, and I look forward to your questions.
    [The prepared statement of General Vaughn can be found in 
the Appendix on page 77.]
    Mrs. Davis. Thank you.
    General Bostick.

  STATEMENT OF MAJ. GEN. THOMAS P. BOSTICK, COMMANDER, UNITED 
           STATES ARMY RECRUITING COMMAND, U.S. ARMY

    General Bostick. Chairwoman Davis, Representative McHugh, 
and distinguished members of the committee, thank you for the 
opportunity to discuss Army recruiting today.
    I also want to thank you for supporting our initiatives to 
attract the very best soldiers. Having served in combat with 
these wonderful Americans, I am confident that we continue to 
maintain a quality Army of dedicated and loyal professionals.
    As a result of additional manpower, resources, and 
incentives, the Army enlisted 13,000 more soldiers for the 
regular Army and the Army Reserve in 2006 than it did in 2005. 
It was clear then that we made the right adjustments. However, 
adequate resources are not always enough to ensure success. We 
must now overcome a more challenging environment, an 
environment marked by low unemployment, decreasing influencer 
support, and the lowest propensity to serve in two decades.
    Nonetheless, nearly 70,000 Americans have joined our Army 
this year. They are reenlisting in record numbers. We have the 
best-trained, best-led, and the best-equipped Army in the 
world. Our soldiers are staying in the Army because they 
believe in each other. They believe in their mission and they 
appreciate the support of the American people.
    In the area of quality, regardless of their educational 
credentials or test scores, every applicant we enlist is 
qualified to serve. For high school diploma graduates in fiscal 
year 2006, the regular Army and Army Reserve achieved 81 
percent and 89 percent, respectively, against the goal of 90 
percent. We met our goals in all other areas of aptitude.
    In the area of waivers, we have a sound process for 
reviewing all waivers. In fiscal year 2006, 85 percent--nearly 
90,000 of those that we shipped to basic training--entered the 
Army without the need for a waiver. Waivers have increased 
approximately two percent to three percent overall each year 
from 2004 to 2006.
    We believe this is partly a result of changes in society, 
changes in policy, and our improved processing procedures. In 
fiscal year 2007, we expect to achieve 80 percent high school 
diploma graduates, 60 percent in Category I to III offers, and 
no more than 4 percent Category IV.
    We are currently reviewing the impact of less high school 
diploma graduates and increased waivers on the effectiveness of 
an Army at war. We have taken a number of innovative actions to 
accomplish this mission, many with your assistance. We added 
incentives and heavily advertised the two-year enlistment. We 
established a super-leads program to refine nearly one million 
leads to save valuable recruiter time.
    We issued an operational mission to the field to inspire 
them to achievement in these final three months. We implemented 
the recruiter incentive pay to reward our very best recruiters. 
We increased the quick-ship bonus to $20,000 for all MOS's--
military occupational specialties--that ship in the remainder 
of the year. We requested additional soldiers graduating from 
initial training and returning combat veterans to assist in our 
recruiting efforts.
    We reemphasized the $2,000 referral bonus program, and we 
requested the temporary return of up to 1,000 former recruiters 
in these final months of this fight that we are engaged in. We 
asked the leadership of the Army--general officers, senior 
executive service, command sergeant majors--to come out and 
help us with recruiting in the field force and they are doing 
that. We emphasized ``March to Success,'' an education program 
to assist those that are having difficulty passing the armed 
services vocational aptitude battery test.
    We expanded ARMS, the Assessment of Recruiter Motivation 
and Strength, to enlist some of those who are slightly 
overweight, but who are confident they can lose that weight in 
their first 12 months of service. With your help, we increased 
the age limit to 42, allowing those that have always wanted to 
serve, the opportunity to serve. We added greater flexibility 
with tattoos, which aligns with societal changes that we have 
seen. We have implemented a team recruiting concept in one of 
our brigades where every soldier does not have to be an expert 
in every task.
    We can and we will accomplish this mission. It will be 
challenging, but it is a challenge not only for the Army, but 
for this Nation.
    I thank you again for this opportunity, and I look forward 
to your questions.
    [The prepared statement of General Bostick can be found in 
the Appendix on page 82.]
    Mrs. Davis. Thank you very much.
    Thank you, all of you, for being here. We certainly thank 
you for your service. We recognize the professionalism with 
which our recruiters go about their job and the need to really 
have the support of our communities. You make that case very 
well.
    I think what we are here to do today is to really drill 
down, as they say, on some of the major challenges that you 
face and how we can be as supportive of those and at the same 
time really ask you as well to help us understand the 
accountability issues behind that so that we can have dollars 
available when they are needed and to be sure that the programs 
are as creative as necessary for us to complete your job and 
your mission.
    So I wanted to start quickly looking at some of the Army 
recruiting and retention issues that you have talked about. I 
think you mentioned briefly looking at the differences that we 
have come to rely on, really, on the supplemental 
appropriations.
    I want to ask, why are we still relying largely on those 
supplemental budgets? And if you see a shifting so that we are 
able to really reinforce the needs that you have, but do it in 
our basic budgets as opposed to the supplemental? Why are we 
relying on those today and how do you think we can shift away 
from that?
    Secretary Dominguez. Madam Chair, if I could take that 
question. In preparation for the hearing, I consulted with the 
Office of the Undersecretary of Defense for Comptroller, and 
reaffirmed with them the uncertainty about the strength of the 
United States Army is behind us now.
    So we have very clearly established and great leadership 
consensus around the growth path of the United States Army, so 
that it has enabled us to, for the fiscal year 2009 budget 
submission, we will fund the program for all components in the 
base budget. So we are out of the supplemental business for the 
recruiting program.
    General Rochelle. Madam Chair, if I may simply add, for the 
purpose of this hearing, clearly the primary focus is on 
recruiting and retention costs within the base budget. I am 
pleased to echo Mr. Dominguez's comments with respect to that 
level of funding, which in fiscal year 2009 will indeed be 
thoroughly and totally in the base.
    Mrs. Davis. I think for now, in terms of trying to provide 
the bonuses that are needed at the right time, I am wondering 
why you have actually--it appears that the Army recruiting 
command has waited until July 25th to be more aggressive on 
increasing recruiting bonuses. Why is that?
    General Rochelle. Well, first of all, ma'am, that is my 
responsibility to pull the switches and the levers on the 
incentives at the Department of the Army level. Two things: On 
the retention side of the equation, we were attempting to make 
sure that we added first and foremost to the end-strength of 
the Army with our budget, with our offerings for incentives, 
retention incentives.
    Let me be more clear. A soldier who was scheduled to 
separate in fiscal year 2007, whom we then convinced to stay 
with us, was in fact additive to the end-strength of the Army 
at the end of fiscal year 2007, and obviously additive to the 
end-strength in fiscal year 2008.
    Our offerings typically span at least two years, so we held 
back--I held back--on the fiscal year 2008 retention dollars to 
attempt to make it more attractive for more in fiscal year 2007 
to join us. That worked. However, we are going to execute our 
retention budget in total to the level of funding by the end of 
fiscal year 2007.
    On the recruiting side, March and April--and General 
Bostick may wish to comment a little more on this--March and 
April were where we began to see a little bit of softness in 
the execution of the plan, accelerating gains to be able to 
grow the Army in fiscal year 2007 a little faster.
    We then began to put in place, in concert with and from a 
total Army perspective, active, Guard and Reserve, the 
incentives necessary to take us through. As General Bostick has 
mentioned in his opening comments, we will be successful in 
fiscal year 2007.
    Mrs. Davis. Yes. You have avoided some of those challenges 
with having more recruitment bonuses available to you?
    General Bostick. Ma'am, we received the bonuses upon our 
request. The issue is really one of timing and having the 
intelligence ahead of us to know that we have an issue at hand, 
and then to execute in a timely fashion in order to put those 
bonuses on the street. What had happened to us, as you know, 
and it was successful in the mission all the way until May. We 
missed it by about 400 that month and then about 1,400 the next 
month.
    But as soon as we saw in May the challenges that were 
there, we looked at how we could expand the market, what other 
part of the market out there were we not touching. We looked at 
the two-year enlistment. We thought that we could quickly ramp-
up the two-year enlistment if we put the right bonus to that.
    So we went back to the Army and asked for a $15,000 quick-
ship bonus, along with a two-year enlistment that came with two 
years of college. Normally in a month, we will enlist about 30 
or so with the 2-year enlistment, and we did 10 times that in 
our first month with this program.
    So we feel like we turned it right away and then we looked 
at June, and June was a very, very difficult month. It was a 
month that we did not expect to see turn the way that it did. 
So it reinforced some of the environmental factors that we were 
already facing.
    So again, we came back to the Army and asked for a $20,000 
enlistment bonus, but this time for all soldiers that were 
shipped in every military occupational specialty for the rest 
of the year.
    Mrs. Davis. I think just before we turn to the members, we 
are certainly going to want to focus on the erosion of recruit 
quality as an issue, but I think it is fair for us to address.
    Are there additional dollars that you have foregone that 
could have been used for enlistment bonuses that are still 
available to you? Have you basically worked through that now?
    From that discussion, I think we are just trying to 
pinpoint whether there are some additional opportunities out 
there that have been missed.
    General Rochelle. I don't believe there are opportunities 
that we have missed thus far for the remainder of fiscal year 
2007. We shifted our focus just a little bit toward ensuring 
that we enter fiscal year 2008 at least as strong as we 
possibly can, not to say that we have written off 2007.
    It is still, as both Mr. Dominguez and myself and General 
Bostick have all attested, it is going to be a challenge 
nonetheless. We have all the resources necessary to be 
successful. It is a reflection of the difficulty and the 
propensity, the strength of the economy, and of course low 
unemployment.
    General Bostick. And if I could also say, on the bonuses, 
and I understand the preciseness of your question, and whether 
we could have used more bonuses earlier in order to get ahead. 
We are balancing two things: one, to bring the Army to the size 
that it needs to be; and also to be good stewards of the 
taxpayers' dollars.
    As we look at those bonuses, we target them to the most 
challenging military occupational specialties that we need to 
fill. We balance those as long as we are moving along and 
accomplishing the mission as we need to be.
    I think the next 2 months will be a good test for us 
because now, with a fairly large bonus of $20,000, and it is 
open to all of those who ship in the last 2 months, that is 
available to everyone who joins the Army.
    So this will be a good test to answer the question of 
whether increased bonuses at a time where the environment is 
shaped like it is, will actually attract more young men and 
women to serve.
    Secretary Dominguez. Madam Chair, if I might, the Army 
Guard is facing currently in fiscal year 2007 a resource 
shortfall for their program, so the guard does need rapid 
action on a reprogramming request to fully finance that.
    I think General Vaughn can fill in if he would like.
    Mrs. Davis. If for some reason that reprogramming didn't 
move forward, what would that mean to your recruiting efforts?
    General Vaughn. Madam Chairwoman, thank you for that 
question.
    We are still sailing along on the back of some flawed 
assumptions about what kind of end-strength we were going to 
make. We have had to survive in 2006 and 2007 on very small 
base budgets, and our supplementals that didn't reach all the 
way around it also.
    In 2006, we took as much money as we could possibly take 
out of statutory programs and cash-flowed what we had to do to 
make this real, to make this recruiting drive happen for the 
United States of America. The Army supported us and bailed us 
out with a reprogramming action, as you well know.
    They came over here and got the support and it paid all of 
the cash advances that we had moved up to make up for what we 
didn't have in the base and supplemental. So in looking at that 
situation and the fact that the base came forward again very, 
very low, and the supplemental also was very low, it didn't 
reach around what our requirements were by a large amount.
    And so this year, we wouldn't have continued recruiting 
past June had we not had the promise from Army that they would 
support an omnibus reprogramming. And so I talked to the 
leadership of the Army about it, and the impact is if we don't 
have the omnibus reprogramming this time, then we will cut the 
Guard Recruiting Assistance program (G-RAP) program completely 
out.
    We will significantly curtail all of our recruiting and 
retention efforts for the remaining portion of the year just to 
pay down and be able to recover somewhat, but we will fail to 
make statutory payments to our Active Guard and Reserve (AGR) 
and technicians. That is how short we were in the base and 
supplemental side. We reduced retention and recruiting bonuses 
in the Army National Guard.
    Mrs. Davis. General, I think the concern--and I certainly 
appreciate what that would mean if those reprogramming dollars 
don't go through, but I also am hearing you say that you have 
been short, we have all been short, in predicting what is 
really required. And that concerns me, that we need to make 
certain.
    Why is that? I mean, is it because we didn't want to put 
those needs forward? Were people just off in the predictions? 
Why such a shortfall?
    General Vaughn. Madam Chairwoman, we have been on the mark 
as far as what we needed. We have been on the mark as far as 
what we needed. We were told, if you remember, the secretary of 
the Army came over here and testified that they would pay for 
whatever we could recruit to. It is in testimony.
    And so I had no fear, even though we were so short in the 
base and supplemental last year, I had no fear that Army was 
going to come through with that. Otherwise, it was going to 
look like an agenda that someone didn't want us to make end-
strength.
    And so, this year as we move forward, once again the great 
vice chief, who is a friend of mine, assured me that they would 
help us on this.
    Now, the problem we have leading into near year, just so 
you know, is I have gone to the comptroller because I had the 
same concerns, and said, ``Dear comptroller, this doesn't look 
quite right, and I am concerned. Are you going to be able to do 
this, for instance, in 2008?'' And the answer I got was: You 
live on your base and supplemental, as we work to get it into 
the base.
    And so now, the real problem--and I talked to the secretary 
beforehand--and we have to straighten this out because next 
year we will quit recruiting about February. Every year it gets 
a little closer to us, but we have gone as far as we can under 
the conditions that we have been operating.
    Secretary Dominguez. Madam Chair, if I might add, looking 
backwards over the last several years, there have been pretty 
intense discussions within the Department and then between the 
Department and the Congress about the end-strength, the 
relative strength numbers of the armed forces in general and 
the Army in particular.
    Those discussions, as well as the uncertainty of the 
conflict and how many people we would be needing for that, 
contributed a great deal to the decisions about splitting money 
between supplementals and the base.
    Those are behind us. There is a leadership consensus now on 
the strength of the armed forces and all the components. So we 
will now be building budgets that fully fund the programs 
necessary to achieve those outcomes, beginning with the Fiscal 
Year 2009 President's Budget.
    Dr. Chu, Secretary Hall, and I are committed to working 
with Lieutenant General Blum and Lieutenant General Vaughn here 
to sort out fiscal year 2008 and make sure that he is postured 
for success. The guard is critical to the success of the Army. 
The guard is critical to the governors. We will make it right.
    Mrs. Davis. Thank you.
    Mr. McHugh.
    Mr. McHugh. I guess that is good news, but I have to tell 
you it is about one and a half years of interim ``not good 
news.''
    It also, with all due respect, Mr. Secretary, sounds to me 
like the vaunted promise of out-years that we have all heard 
about. I go to bed every night praying that the good Lord above 
one day before I die he will let me live in an out-year, 
because everything is going to be wonderful. I just can't help 
but express some wonderment if that is the case.
    In the meantime, we have to kind of look at where we are 
today and where we are going in 2008. I have to be honest with 
you. I have heard to the extent you have addressed the issue, 
the responses with respect to this reprogramming, and I don't 
for a minute doubt the need to have this done.
    I understand the great challenges that General Vaughn and 
his leadership finds him under. They have been dealt a pretty 
difficult hand, to say the least. It requires money.
    But I am at a loss to understood how we can justify, 
rectify taking over $800 million out of the personnel accounts 
of the United States Army, including I might add $155 million 
in recruiting bonuses from the branch of the service and active 
component that is not exactly in clover.
    Can you help me understand this?
    You heard General Rochelle talk about, and we are all aware 
of, the new recruiting bonus that is out there--$20,000, I 
believe, for a two-year enlistment, and it goes up for longer 
enlistments.
    I don't know what the overall price tag is on that, but 
seeing as how we just, if we do a reprogramming in the way it 
is structured, take away $155 million in your recruiting money, 
doesn't that cause a crunch?
    Secretary Dominguez. I believe, sir, that that is 
inaccurate information that was provided.
    Mr. McHugh. Then help me get it right.
    Secretary Dominguez. What I have been told--because I had 
this same reaction, ``How can this be?'' As our staffs work 
together to dig down to this, what I have been told--and I hope 
General Rochelle can echo that--is that we are reprogramming 
from money that we thought would be paying for mobilized 
soldiers on active service that we didn't need to mobilize and 
bring onto active service.
    So that the cash anticipated to pay for those mobilized 
soldiers, since they weren't mobilized and we didn't bring them 
into active service, is now free and we are actually moving 
that over.
    Mr. McHugh. That is the entire, I believe the figure is 
$845 million?
    Secretary Dominguez. That is what----
    Mr. McHugh. Can you see why I am confused a little bit 
here?
    Mr. Secretary.
    General.
    General Rochelle. Yes, sir.
    Mr. McHugh. Okay. General, help me better understand it.
    General Rochelle. Yes, sir. The amount that was moved to 
help the guard, which doesn't really address the larger issue 
that General Vaughn brought up, but the amount that was moved 
out of the military personnel accounts of the active 
component----
    Mr. McHugh. The reprogramming? The entire reprogramming?
    General Rochelle. Reprogrammed, yes, sir. It was $155 
million, and as Mr. Dominguez correctly states, it was money 
that we estimated in the 2007 budget build that we were going 
to need for members of the reserves who would be activated, and 
they were not in the numbers that we estimated.
    Mr. McHugh. Well, my understanding is the entire 
reprogramming request for the guard--and maybe I am wrong 
here--is about $500 million. Is it not?
    General Vaughn. I think that the reprogramming for the 
omnibus is about $810 million: $272 million in Operations and 
Maintenance (O&M) and $538 million in Personnel and 
Administration (P&A).
    Mr. McHugh. You are right mathematically. I am sorry. I 
thought we were talking about recruiting and retention. But 
$500 million of that is for recruiting and retention.
    General Vaughn. Sir, there is all but $112 million of that 
piece that is payback to our statutory accounts, and that was 
because of the recruiting and retention piece that we had to 
pay for.
    Mr. McHugh. I am not challenging the fact you owe it. I am 
questioning the affordability of it from the other 
reprogramming here. We are trying to decide where the money is 
coming from and I don't know as we have determined that yet.
    Yet, General Rochelle, you tell me it is $155 million for 
direct payment to there. That leaves about $700 million that 
the reprogramming request seeks to move out of active Army 
personnel accounts. Yes?
    General Rochelle. No, sir. My understanding is only $155 
million out of active Army military personnel accounts.
    Mr. McHugh. Well, you are wrong. It is $845 million, and I 
hate to be the bearer of bad tidings here, but that is the 
problem. I don't know, maybe the Administration has given us 
bad figures or they are giving you bad figures, but somebody 
has bad figures here.
    Secretary Dominguez. Sir, why don't we take that for the 
record and we will get back to you very quickly with some 
clarification.
    [The information referred to can be found in the Appendix 
beginning on page 101.]
    Mr. McHugh. Okay.
    General Rochelle. Sir, I misspoke. I misspoke. I was 
looking at $155 million which was directed. You are correct on 
the $845 million out of military personnel Army accounts.
    Mr. McHugh. And $155 million of which are your enlistment 
bonuses being shifted over to the guard.
    General Rochelle. No, sir. That part is not correct. Sir, I 
will clarify.
    Mr. McHugh. You better take that for the record. You are 
losing $845 million out of personnel accounts.
    General Rochelle. That is correct.
    Mr. McHugh. Can we agree your retention and recruiting 
monies come out of your personnel accounts?
    General Rochelle. Oh, yes, sir. Absolutely.
    Mr. McHugh. So you are losing $845 million. We can argue or 
discuss whether or not it is actually coming out of a 
designated account, but you are losing $845 million.
    General Rochelle. That is correct.
    Mr. McHugh. You just instituted a new $20,000 per two-year 
enlistment bonus.
    General Rochelle. Correct, sir.
    Mr. McHugh. And it goes up in gradations of, I believe, 
$5,000 per added tour. What is that going to cost? And where 
are you going to get the money? That is what I am trying to 
understand.
    I am not begrudging the guard the challenge. They have a 
big, big problem here. And this gets down--and I understand in 
fairness that you all are dealt hands by the Office of 
Management and Budget (OMB) and others that tell you, ``Here is 
how we are going to do it.''
    But this is the forum we have. And, Mr. Secretary, you know 
that you have heard this schtick before. I am not going to 
apologize for putting you through it, but I will say I am sorry 
we have to talk about this again. This is the wrong way to run 
an airline--or an Army. I guess that is a better way to put it 
here.
    I have to tell you, for the record and so that the folks 
who in 2009 will actually be making the decisions to keep the 
commitment that you, as an honorable person, came here today 
and relied upon to give, they better damn well get it right and 
get it right that time, because this is an awful, awful way to 
proceed.
    General Vaughn, if we do this reprogramming in time--and 
God love you for having to rely upon the Congress to do 
anything on time right now--but if we are able to, I mean you 
could have as little as 30 days left to spend that money. Part 
of that, as I understand it, you have about a $22 million 
advertising budget.
    How are you going to spend that kind of money effectively?
    This is not your fault. I don't mean to be accusing you. I 
don't. But this is what you are looking at--$22 million. I know 
a little bit about buying ads and I think every politician 
does. You can't possibly spend that money effectively.
    General Vaughn. Congressman, thank you.
    Those contract vehicles are in place, and $50 million of 
that I talked about was for G-RAP. One of my great, big, huge 
concerns is on this whole thing is just $112 million of it that 
is on the back end for recruiting. The rest of it is payback in 
order to pay the salaries of our technicians and AGRs.
    Mr. McHugh. I have got you.
    General Vaughn. And so dropping those contracts--now, the 
tough piece is here comes this thing over to the Hill to be 
acted on, and every day is a huge deal, whether it is the 29th, 
28th, 27th, there is an enormous difference between the 27th 
and the 26th, for instance.
    So I understand, but we can execute if we get it early 
enough, and I don't mean the pressure early enough to get it 30 
days in front of 15 days in front, but somewhere between 15 
days prior to the end of the month. Every day is an issue for 
us, for only the recruiting piece of it. The other piece is 
spent.
    Mr. McHugh. In fact, you need the money right now.
    General Vaughn. Yes, sir.
    Mr. McHugh. Underscoring the fact, no culpability at this 
front table. We are underscoring the fact what an awful process 
this has been over the past several years where we are 
repeatedly going to the supplemental process of funding 
something so challenging and critical as recruiting and 
retention.
    It is just the wrong way to do it. I just think the 
Administration has made some bad, bad choices. I will shut up 
with that, because our other colleagues have been very, very 
patient. But I want to ask one more question.
    General Rochelle, you said you were--looking for the word; 
I wrote it down--``reasonably confident'' you are going to meet 
you recruiting goals.
    As you heard in my opening statement, two things: One, 
General Keane, retired--someone we all know and deeply admire--
just gave his opinion, and it is a valued opinion, but it is an 
opinion, that you weren't going to do that.
    As you look at the figures right now, as I mentioned in my 
opening statement, you are about 2,400, I guess, below your 
authorized and over 8,000 below your target, which is above the 
authorized because you are trying to grow to that higher 
authorized level.
    June is a bad month. June is usually a good month, and I 
think that was why General Bostick said we were kind of 
surprised by that. I mean, the schools are out and generally 
that is where things start to get good again.
    How reasonable is your ``reasonably confident'' level? I 
know you are a military guy, but this is an incredibly tough 
challenge, is it not?
    General Rochelle. Sir, the challenge is tough, and I did 
not mean in any way to diminish the significance----
    Mr. McHugh. And I know that, absolutely. I didn't mean to 
pit you against General Keane.
    General Rochelle. I have the utmost respect for General 
Keane.
    Mr. McHugh. I know.
    General Rochelle. I can only say I am reasonably confident 
that we will make it, sir. I have watched from a very close 
proximity Army recruiting for well over six years. I think I 
have, in addition to the analytical background to watch exactly 
how it is working, but also a respect for the desire that 
General Bostick spoke about on the part of those 7,000 or 6000-
some recruiters as well to be able to pull it out.
    Mr. McHugh. Well, gentlemen, thank you all.
    Let me just say in closing, all of us I know on this panel, 
perhaps more than most in this Congress, have such a deep 
appreciation of the challenges that this Army, our men and 
women in uniform, face across the board and we are in awe of 
their achievements.
    But for those who don't routinely have firearms shot at 
them, you folks are brave as well. You have a heck of a 
challenge. I hope nothing that I, or certainly anyone else 
would say, would in any way suggest to you that we don't 
respect the effort and the honor you bring to the challenge 
each and every day. I deeply appreciate it, and we are all 
trying to pull in the same direction. We want to work together 
to realize a better day.
    So thank you for your service and your great work.
    Madam Chair, I yield back.
    Mrs. Davis. Thank you, Mr. McHugh.
    Dr. Snyder, we are going to go on the clock following all 
the members' questions. Thank you.
    Dr. Snyder. Madam Chair, Mr. Murphy has a conflict with 
another hearing and during his time in the Army didn't get much 
time to ask probing questions of two- and three-star generals. 
So if I might, I yield my time to him and then assume his place 
in the queue for questions.
    Mrs. Davis. Okay.
    Mr. Murphy.
    Mr. Murphy. Thank you, Madam Chairman.
    And thank you, Dr. Snyder. I appreciate the time.
    Gentlemen, thanks for testifying today. We do appreciate 
your continued service to our country. I was proud to help 
recruit for the Army Judge Advocate General (JAG) Corps when I 
was a professor at West Point. I know how critical your mission 
is for our country, and thank you.
    Historically in our country during times of war, everybody 
was asked to sacrifice. And even the private sector helped out 
with the war effort. It seems to me that a major part of our 
services' recruiting budget must be spent on television and 
radio advertisements.
    I have had a great deal of difficulty, though, finding the 
statistics on how much money the services spend on television 
and radio recruiting, but I and every other member on this 
panel understand how expensive it is.
    My staff and I have been working on a proposal, and I would 
like you all to give us your thoughts on it. What would you 
think about requiring that during a time of war, television 
stations must run armed forces recruitment advertising for 
free, or at least only charge our military the lowest unit 
charge?
    I know that this is an extremely complicated issue, but I 
believe that we need full thoughts during this time, and I 
think it is something that I am personally very interested in, 
but also curious to see how the Department of Defense and our 
armed forces would react to such a proposal.
    Secretary Dominguez. Sir, if I might take that for a little 
bit first.
    Thank you for your continued service to the Nation.
    I think as a matter of policy and principle, I believe the 
Administration would view unfunded mandates of that nature 
particularly as it applies to the private sector, would be 
maybe not the best public policy.
    Now, you know, I haven't had a lot of time to think about 
it and work with you, but I would guess that our attitude would 
be that there are better ways to do it. That we are confident 
there are resources in the country to support the sustainment 
of the armed forces.
    That part of that is, as you pointed out accurately, is an 
advertising program, and that we ought to acknowledge that that 
is part of the cost of the national defense and step up to it; 
authorize, appropriate, and spend the resources required 
without putting that burden as a tax on a small part of our 
great Nation and the great private sector who is doing many 
things in small ways to help and contribute.
    Mr. Murphy. Just so I am clear, then, you would say that in 
your opinion you believe the Administration would not welcome 
this free advertising on television?
    Secretary Dominguez. No, because it is not free to those 
businesses who would have to--it is a tax on them. We would 
rather that we recognize the cost of owning and operating our 
armed forces, including its advertising and we will pay for it.
    We will come and ask you for the money. I trust the 
Congress to appropriate it, and we will spend it accurately, 
and we will get it right in the 2009 budget.
    Mr. Murphy. Gentlemen, could I have your thoughts as well?
    General Vaughn. Congressman, we have a non-commercial 
announcement agreement with the state broadcasting 
associations, NCSA. And for every dollar that we spend, we get 
$4 back from them. And so the nearly $9 million that we put 
into this thing has resulted in close to $40 million worth of 
broadcast. And so I think we are kind of close to what you are 
getting at already.
    Secretary Dominguez. That is a great point from General 
Vaughn. It already is part of maintaining their licenses; 
television and radio stations across the country have to do 
public service announcements, and these do qualify.
    Mr. Murphy. I understand that. I also understand those 
public service announcements aren't shown on national 
television during primetime hours when the population that we 
are looking for, the 18- to 28-year-olds are watching 
television (TV) and music television (MTV) and other things.
    So gentlemen, if I could have your comments, I would 
appreciate it as well.
    General Bostick. Congressman, I would say there are some 
programs out there that we might be able to better leverage.
    First let me go back to how I closed my opening remarks. 
This is not just a mission from the Army and a challenge for 
the Army, but this is a challenge for the Nation. So how the 
Nation stands up and supports this country to protect its 
freedoms I think is very important.
    We do have programs, and I will pick one that we work on 
now. It is called the Partnership for Youth Success. It is 
program that General Shinseki started when he was our chief of 
staff. We have well over 200 companies that are now partners. 
And what we do with these partners is that we sign up an 
agreement that they will partner with the Army such that when a 
soldier enlists in the Army, they have an opportunity for an 
interview with that company.
    Some of these companies have done advertising and some of 
these companies on local levels have done things for our 
soldiers, for our future soldiers, for our family members, 
whether they are at football games, baseball games, within 
their own local media, with the police force, with governments.
    I think we have an opportunity to leverage that. And as you 
all are out in your communities and speaking with the leaders 
there, I think leveraging with systems we have in place already 
could actually get to some of what you are talking about, Mr. 
Congressman.
    General Rochelle. I would like to just add one thing, 
Congressman Murphy. That is I think we have, as General Vaughn 
has indicated, some very good examples of where major 
advertising agencies and major distributors of sorts have taken 
it upon themselves to do things in direct support of Army 
recruiting and direct support of military service and in direct 
support of our Department of Defense in general. What I would 
prefer to see is a call for more of that from this body and 
from others.
    Mrs. Davis. Thank you.
    I am going to turn to Mr. Kline.
    Mr. Kline. Thank you, Madam Chair.
    Thank you, gentlemen, for being with us today. Thank you 
for your service. I want to echo the comments of all my 
colleagues, particularly Mr. McHugh, when he said how much we 
appreciate the very tough job that you have and how much we 
admire the hard work that you are putting in.
    I also want to echo his comments when he said it is tough 
to have to depend on Congress to get something done in a timely 
manner.
    I know, General Vaughn, that you are really under the gun, 
so to speak. When we visited, you and I and Congressman Walsh 
at Oakfield a couple of weeks ago, to start welcoming back the 
first contingent of the 2,600--5,000 actually--Red Bulls that 
completed their historic 16-month combat tour, a subject of 
some discussion then, and before then and after then, is: How 
do we reintegrate these fine soldiers back into their civilian 
jobs and civilian lives?
    We have had a program much discussed up here which has 
broad bipartisan support, called the Yellow Ribbon 
Reintegration Program--sort of spiraling off the efforts of 
General Shelton in Minnesota and other wonderful TAGs that are 
out there. And yet now we are sitting here getting ready to 
move forward to appropriate funds starting the first of 
October, and it appears there aren't any funds to pay for that.
    So we are looking for the opportunity to bring these fine 
soldiers back in and help them with potential problems with 
post-traumatic stress disorder and perhaps family and job 
programs. We apparently are going to be unable to find any 
money to do that. We are going to try, and use every sort of 
wile that we can to do that, but it doesn't bode well for some 
of the $850 million problem that you have facing you.
    General Vaughn, I am extremely impressed with this. I know 
we all are, and some of us were on this committee when the 
Department of the Army said that wasn't going to happen and cut 
that money, and you have been trying to catch up ever since 
with the money. You have explained that difficulty, how it is 
moving you closer and closer, and yet nevertheless we are over 
here, and that is a very impressive and good thing.
    I guess the question that I want to explore with you is, 
nobody thought you could do this. What do you think you can do? 
What would be feasible--350,000, 360,000, 370,000? We are 
looking to increase the end-strength of the active forces and 
we have met unfortunately a great deal of resistance from the 
Administration up to now, but now we have it in law and we are 
trying to move forward. But it appears to me there may be some 
room in the National Guard.
    Could you explore that with me a little bit?
    General Vaughn. Thank you, Congressman. I think 360,000, 
based on what we have done here, is certainly attainable in 
fairly short order were we provided the resources to do so. I 
would say 370,000, you know, based on this, but I would hate to 
bite off more than we can chew all at one time.
    Mr. Kline. Please don't.
    General Vaughn. And so you know we thought that we would 
end up this year at somewhere around 356,000. We had a 
substantial amount of help on the three percent in case that 
came true. It looks like the estimate is now around 353,000 as 
about where we will end up simply because we have had to cut 
back on the bonuses.
    But if we run this thing wide open just like I talked to 
Secretary Dominguez ahead of time, and they pledged that help, 
if we run it wide open, 360,000 is certainly achievable in 
pretty short order, sir.
    Mr. Kline. Is that three percent right? Is that with the 
flexibility we need to go over?
    General Vaughn. The three percent will get us to about 
359,000.
    Mr. Kline. About 359,000.
    General Vaughn. Yes, sir. That is, of course, without the 
appropriations behind that, that is end-strength that doesn't 
have any money behind it, sir.
    Mr. Kline. I understand that. I hate to jump back into the 
discussion that Mr. McHugh was having because there is a lot of 
money and there are a lot of dates and it is kind of confusing 
to all concerned.
    But we have two issues here, and I see the yellow light 
just came on, so I will be very brief. We have the issue of 
reprogramming that is going to get us to the end of this fiscal 
year, and then we have the issue of what is it going to take in 
2008.
    Do you have both of those numbers?
    General Vaughn. Sir, I do. I would like to give them to you 
for the record.
    [The information referred to can be found in the Appendix 
beginning on page 102.]
    Mr. Kline. Okay. All right. Thank you very much.
    General Vaughn. Thank you, sir.
    Mr. Kline. Madam Chair, I yield back.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. I thought those men were ahead of me.
    Mrs. Davis. If you would like.
    Mr. Jones, are you next?
    Mr. Jones. Yes, ma'am. That is very generous of----
    Mrs. Davis. Dr. Snyder is yielding.
    Mr. Jones [continuing]. Dr. Snyder. I appreciate it and 
would certainly have waited for you.
    Generals, I have great respect for everybody. I mean, you 
have an impossible job. Thank you for what you are doing.
    I want to get back to the issue of recruitment. General 
Bostick and also General Rochelle, I read an article--I have 
made many mentions of this, it was in the Carolina paper, 
``Deployed, Depleted, Desperate.''
    Yesterday, in the Oversight Committee chaired by Chairman 
Snyder, we had General McCaffrey, General Newbold in here 
yesterday. General McCaffrey has written about this. Yesterday, 
he was very emphatic when he said that the Army will start to 
unravel in April, sometime in the spring of next year.
    I know that you had difficulty meeting your goals in May 
and June. General Bostick, you talked about now, which we all 
know that you raised the age to 42 and people who are close to 
42 can join the military and I guess the guard as well, and the 
reserves.
    According to this article, the demands of the war on our 
troops and their aging, worn-out equipment already pushed the 
annual costs of enlistment and reenlistment bonuses above $1 
billion, recruit advertising to about $120 million annually. I 
know you have been talking about numbers with my colleagues 
earlier.
    I want to go to the point that both generals made--well, 
there are three, but the two--General Rochelle and General 
Bostick. You made mention that you are not getting much help 
from the coaches and the teachers. When did you start seeing 
where that was a problem that the coaches and the teachers 
across this Nation, in the high schools?
    At one time you counted on them--I guess you did, or you 
wouldn't have made that statement--you counted on them to 
encourage those high school seniors to think about the military 
as a possible career or at least for a period of time.
    When did you start seeing this becoming a problem?
    General Rochelle. Sir, let me first of all comment that I 
am aware of some of the comments made by General McCaffrey. I 
saw something just today that was attributed to him. I did not 
specifically see a reference to April of next year. So I 
respectfully cannot comment on that.
    To answer your specific question on when I think the Army 
began to see that statistically significant numbers, the answer 
is in 2005. We began to see it in 2005. It spread from, if you 
will, educators to coaches to moms and dads, and then it began 
to take an even steeper dive within those same groups up to 
today.
    I will defer any further comment on that to General 
Bostick.
    General Bostick. Congressman, I replaced General Rochelle 
in recruiting command so I saw the same downward decline of 
influencer support while changing command with him and we have 
seen that continue to erode. Today, about one-fourth of mothers 
and one-third of fathers would support the military.
    When I first arrived at recruiting command and would walk 
into recruiting stations, a lot of the youngsters were 
concerned, as they are today, about the war. The question was 
usually, ``What can I do, what assignment can I go into, what 
unit, what location can I go to in order to avoid the war?''
    Now, many sign up knowing that this is a commitment that 
they have voted with their heart and their minds and they are 
committed to doing it. We have a number of future soldier 
losses every year, of soldiers that have signed up, said this 
is what I wanted to do, and then somewhere along the line, they 
change their mind. We estimate that that is going to be about 
10,000 this year that have signed a contract, and then change 
their mind and decided they are not going to come in.
    I can't tell you how much of that is caused by influencer 
support, but I know we are going after it in every way that we 
can. We run an all-American boat with the accessions command, 
my next higher headquarters, every year where they highlight 
the best high school football players, and we bring in coaches 
and teachers and educators.
    This is an important area for us to spend time on. The 
educators, the influencers, the coaches, and parents must know 
the opportunities that we can provide. So explaining what the 
Army is all about and the advantages of service is very 
important.
    Mr. Jones. I wasn't being critical, because you all have 
done a tremendous job. I have seen that football game on TV 
myself. But definitely the recruiting is tracking the national 
debate, and you can do nothing about that.
    I want to again, as my time is up, I want to compliment you 
on the great job you are doing, and all of our men and women in 
uniform, and God bless you all. Thank you.
    I yield back.
    Mrs. Davis. Thank you.
    Mr. Wilson, would you like to go? You all were here before 
this, so we will let you do that.
    Mr. Wilson. I would certainly not mind if doc would like to 
proceed? Thank you.
    Generals, secretary, thank you so much for being here 
today. I am particularly happy to be with you because I have 
never been prouder of the military than I am today. I was a 
veteran for 31 years: 3 years in the reserves, 28 in the guard. 
I have had the opportunity to visit Iraq seven times; 
Afghanistan three times. I, six weeks ago, visited with my 
former unit, the 218th Brigade, which is currently in 
Afghanistan. I have never seen them look so good.
    So obviously, recruiting and retention, I truly believe it 
is the best ever, and I am very proud of the people serving. I 
have heard you all mention that. I love the terminology. It is 
a good and noble path, a call to national service. And then you 
really identified it, and that is that military service is 
opportunity. I know what it meant for me, the opportunities 
that I had of training at AG school, JAG school--I see an AG 
officer back there with a smile.
    The people that I have gotten to meet, and in fact it was 
inspiring to me, but all of my sons--four--have joined the 
military. I know first-hand the opportunities for them. My 
oldest son went to field artillery school. It truly propelled 
him, amazingly enough, into law school. It gave him the 
confidence and background to do it. I am very proud of the guy, 
and he is a veteran of Iraq.
    Another son, and I see all these Army people here, I have 
to acknowledge one guy. He is off-track. He is a doctor in the 
Navy. But again, we are really proud of his opportunities in 
military service. A third son was in signal school. He now has 
a phenomenal background in communications, which helps him as a 
member of the National Guard and his civilian position as a 
commercial real estate sales representative. And then our 
fourth guy is an engineer. He is ROTC, and just grateful for 
the opportunities. He is learning leadership thanks to being in 
the military.
    Another point, I am so thrilled as I visit with Junior 
Reserve Officer Training Corps (JROTC) and ROTC units 
throughout the district I represent. Anytime we have a new 
school built, the first thing that the community wants is 
JROTC. It has a great background.
    A final point in regard to this issue is the recruiters 
themselves. I have met so many recruiters over my career, but 
the recruiting school at Fort Jackson, I want you to know, as I 
am flying back and forth from Washington to Columbia, the 
recruiters that I meet are first class, people who are truly 
concerned and interested in providing opportunities for our 
young people.
    Now, obviously I am somewhat biased to the National Guard, 
so General Vaughn, I want to congratulate you on the increase 
in end-strength by 22,000 troops. Could you explain to us how 
you think this occurred, and what reasons there have been? What 
do you see for the continued success of the Guard?
    General Vaughn. Thank you, Congressman. We put some 
innovative programs in place, we think. We think the Guard 
Recruiters' Assistance Program is probably the best thing that 
we have ever done. It changed the face of recruiting. We went 
from the bottom of the totem pole among high school graduates 
to the very top. We have nearly 93 percent high school 
graduates now.
    So we put the right things in place. In our advertising, we 
were very selective about where we advertised, and a lot of 
people think, well, how come you all aren't on the National 
Association for Stock Car Auto Racing (NASCAR)--I wasn't a 
NASCAR fan, but there are 70 million people that are. We put 
some money into fishing, because there are 50 million fishermen 
out there and there are lots of parents trying to make memories 
and grandparents trying to make memories for them.
    I think the biggest thing--you know, it is like pouring 
gasoline on a fire--is there are still a lot of patriots out 
there. There are a lot of patriots. And by the way, you know, 
the question on schools, I think we were recruiting a couple of 
different types of folks. We didn't realize that there was that 
kind of market when we started. We had to change to a non-prior 
service market. And we have many, many, many soldiers that want 
to stay in the communities with a job and serve the Nation, and 
go to war or go to school.
    And so the patriotism aspect of this just kind of blew 
everybody away. It is the support of the communities. It is not 
the bigger issue of right or wrong. I mean, what they were 
proud of is stepping forward with the people they serve with in 
that community, and the whole community--just like in 
Minnesota--this thing in Minnesota welcoming the Red Bulls 
back. You know, town by town by town by town, they didn't want 
a great big ceremony. Every one of them wanted in on this thing 
statewide.
    And so we put the right programs in place at the right 
time, a very innovative approach to it. And rather than the 
influencers, we think it is peer recruiting. We think it is, 
you know, we would like for you to join our team, and be with 
us. And that is what we were able to do, sir.
    Mr. Wilson. Thank you.
    Again, I have two sons participating in G-RAP, so I know 
first-hand what this means. So again, thank you all. Thank you 
for the opportunities provided to the young people of the 
United States.
    Mrs. Davis. Thank you, Mr. Wilson.
    Dr. Snyder.
    Dr. Snyder. General Rochelle, it sounds like if we just 
paid Joe Wilson to have more children, we could solve a lot of 
our recruiting issues. [Laughter.]
    I want to pick up a little bit on what Colonel Kline was 
talking about, and Walter Jones talked on a little bit, too, 
which is the comments that General McCaffrey made at our 
subcommittee hearing. It is not just him that is making it. It 
is this issue that we expect--you know, we have these 
recruiting goals that you are targeting, and we have had this 
end-strength discussion in Congress, primarily with Secretary 
Rumsfeld for six years or so. And now the President and the 
Congress are moving ahead.
    But there are some voices out there that think that the 
Army ought to be dramatically bigger, you know, dramatically 
bigger. We are talking about going from 12-month to 15-month 
rotations. We are talking about the most powerful Nation in the 
world, you know, we are struggling to maintain our Army at 
160,000 troops in there for a relatively short period of time, 
that the Commander-in-Chief should not be put in this position, 
that there should be a dramatic increase in numbers.
    So my question, General Rochelle, is what if the Congress 
were to come back in September and say, you know what, we have 
been listening to some of these folks in and out of uniform, 
and we think we need to increase by 50,000 over the next year, 
or 30,000, and we are not going to do this glide path over 4 or 
5 or 6 years.
    Do we have that ability to do that? Is it just a matter of 
money and putting more people in recruiting? Or is that just 
really a pipedream? Is this a glide path, and we probably have 
already chosen that because we really don't have any choice but 
to choose this glide path to increased end-strength?
    General Rochelle. Sir, if you will permit me just a bit of 
a diversion to go back to General Vaughn's comments. I will 
answer your question, sir.
    There is patriotism out there. There clearly is. Each of 
you distinguished members has addressed that in one fashion or 
another. In point of fact, we have six or seven young people in 
the chamber today that I would ask to stand, members of the 
Army ROTC and the United States Military Academy.
    Please stand.
    They just happen to be here.
    [Applause.]
    Army ROTC cadets who simply happened to be here to observe 
this congressional process and our Constitution being played 
out.
    So it can be done, but it cannot be done without the 
support of the Congress. It cannot be done without a, if you 
will, national call to duty, which thus far the Army and DOD 
have been beating that particular drum, but it is much larger 
than just DOD and the Army.
    Dr. Snyder. So who is it?
    General Rochelle. I beg your pardon?
    Dr. Snyder. Who is it?
    General Rochelle. The national call to duty.
    Dr. Snyder. Are you implying that there are other people 
out there that are not hitting the drum?
    General Rochelle. Sir, I am implying that every single 
American should be beating the drum. I am indeed implying that 
every American should beat the drum. We have members, as I 
mentioned before, we have corporations that have signed up to 
do their part, and they are beating the drum.
    General Bostick. Congressman, if I could make a comment. I 
would like to hearken back to earlier comments about the 
patriotism of Americans that are out there, and also what 
Secretary Dominguez talked about in ensuring access at the 
beginning of this. We have to look at 32 million 17- to 24-
year-olds, and we have to peel that back down to about 2.2 
million young Americans that are qualified for this service 
that we are enlisting soldiers into.
    The challenge for our recruiters is often the access, the 
ability to tell the Army story to a soldier or an applicant 
that we know once they hear that story, they are going to be 
willing to serve. There are many, many patriots out there, and 
having that access and how do we enable that access is very 
important to us. The more that we can help there, the better I 
think we can grow.
    Absolutely, there are many out there that would love to 
serve, and we need to find them and we need to talk to them. 
Our recruiters----
    Dr. Snyder. I understand all this, and I am agreeing with 
all that. I also agree that at times of great foreign policy 
debate, we need to have our military at the size we think that 
we need it, and then the political debate is over, the 
decisions of the Commander-in-Chief. And we don't always agree 
with those decisions, but that is how we maintain the national 
defense of the country.
    My question is, what if the Congress were to decide to say, 
you know, I think a lot of us think this number is a pretty 
minimal number, this increase over the next several years that 
ought to be dramatically higher, and we are not sure that we 
could get there even if we made that decision.
    I see my time is up, Madam Chairman. I had some 
interruptions.
    Mrs. Davis. Thank you.
    We do have to say that if there are interruptions, we do 
have to ask any of you to leave that are creating this.
    I want go to on and talk about recruit quality, because I 
know that that is a difficult issue, and yet at the same time I 
think that we need to talk about it because it says something 
about the leadership that we are going to see in the services 
in the next 20 years. And so I wonder if you could address that 
for us?
    We are well aware that the number of new recruits testing 
below average in mental categories has shifted, and nearly 40 
percent during fiscal year 2006--the highest level since fiscal 
year 1990 in categories 3(b) and 4, which indicates a shift. 
Active Army accessions during fiscal year 2007, 78 percent of 
them are high school graduates. The goal is closer to 90 
percent.
    Talk to us a little bit about what you see in those shifts. 
And particularly how it applies to the non-commissioned officer 
leadership that we will be looking for in the future. How do 
these numbers affect that? What do you see?
    General Rochelle. Madam Chair, I personally believe that 
the spirit of volunteerism today has a certain aspect of 
quality unto itself. Not to diminish the 90 percent high school 
degree grads, 60 percent 1 to 3(a), but as General Bostick has 
said, every young person who raises his or her right hand is 
fully qualified to serve and fully qualified for the specialty 
into which they volunteer.
    In 1981, fully 51 percent--if my memory serves correctly--
of the young men and women entering the Army in 1981, 50 
percent were at the category four level. Today, consistently, 
that number is at or below four percent. The senior non-
commissioned officers (NCO) who are leading in Iraq today and 
around the globe in the global war on terror, by and large, 
were those individuals who enlisted--not all of them, of 
course--but are representative of many of those individuals who 
enlisted in that 1981 timeframe.
    So the answer to your question I think is two-fold. One, 
how does it bode? I think their performance in the field under-
fire, their performance all around the globe today speaks 
volumes for the future, and it is very positive. Second, I 
cannot overemphasize enough, in the market that has been 
described by every member of this panel, volunteerism today has 
a certain aspect of quality unto itself.
    General Bostick. Chairwoman, I have served with these 
soldiers in combat. At this point in time, I am very confident 
of their capabilities. They are great soldiers. The non-
commissioned officers are truly the backbone of this Army and 
they are leading this Army very well.
    I will say that we ought to take a look at the quality 
metrics. When we talk about quality, we are talking about the 
high school diploma graduates, their aptitude, and we look at 
waivers. Those are three areas that affect us. In terms of high 
school diploma graduates, that was set up, as I understand it, 
to make sure that we did not attrite to a level that was too 
great. We looked at basic training and through Advanced 
Individual Training (AIT), and attrition has dropped in the 
last 18 months from 18 percent attrition down to 7 percent.
    So granted, we have brought in many more General 
Equivalency Diplomas (GEDs) and home schoolers, 19 percent last 
year and the goal was to hold that around 10 percent. But even 
in expanding that to 19 percent, we are seeing that attrition 
is okay. So in terms of that metric of attrition, I feel 
confident we are meeting the desired end-state.
    In terms of aptitude, and this gets to the category fours 
and those that are testing a little bit lower on the armed 
services vocational aptitude battery (ASVAB) test, I would say 
again look at what is happening in the field, and talk to 
commanders that are out there. If you are a mechanic and you 
have to change an engine in peacetime and you change that 
engine once a week, and now you are changing it every day, 
multiple times a day in combat operations, the aptitude concern 
is no longer an issue.
    They are learning at exponential rates in combat 
operations. I don't know what the impact of that is on the 
aptitude quality component of how we measure our Army, but I do 
know we need to go look at it and see if it is having an 
impact.
    In terms of waivers, the third area, we have grown, as I 
said in my opening statement, about two percent to three 
percent each year since 2004. There are a number of reasons for 
that. I don't know all of them, but I know some of them have to 
do with the makeup of our society today.
    We have a zero-tolerance policy in most schools and most 
states--things that children would get into trouble for when I 
was a youngster, and you would be taken to the principal or 
your parents would be called--you are often reported and many 
times charged. And if you look at the Federal Bureau of 
Investigation (FBI) database, in the last 5 years it has 
increased 14 percent for those who are in the age group from 17 
to 24 years old. That is a factor. I don't know how big a 
factor it is, but it is important.
    The other one I would say is that with the Internet and the 
connectivity and automation, there are things that we could not 
find out about you in the past, that we now know about, and the 
states are connected, the FBI database is connected. There are 
probably some folks that are in the services today that 15 
years ago had they not voluntarily said whether they smoked 
marijuana or did something else, we would not be able to track 
that. We can track it today.
    And finally, we have gone through our own processes and 
made sure that through main Six Sigma, that we have a very 
efficient process for the recruiters. Before, if they had to 
submit someone for a waiver, it would take weeks before they 
would get an answer. Now, it is days. So if a person comes in 
and he has to make a decision, the recruiter has to make a 
decision of whether to take a chance on him--and I mean 
``chance'' in terms of time, which is his most valuable 
resource--he is going to do it now.
    So you are going to see the waiver numbers increase. I 
think it will increase another two percent to three percent 
again this year. I think for us in the Army we have to look 
downstream and see what is the impact of those waivers on the 
force.
    Mrs. Davis. Yes. I appreciate that. I don't think anybody 
questions their bravery, their dedication or their ability to 
perform tremendously, as they have. But I think trying to find 
some way of really tracking that information so that we can 
begin to be perhaps even more creative. Actually, General 
Rochelle and I had a discussion about the small percentage of 
people who are actually eligible, and we know that health 
reasons are an outstanding factor why some people are not able 
to come into the service.
    We know that our population as a whole is more obese today, 
has more problems around nutrition and weight than we have 
probably ever had. And it seemed to me that maybe we needed to 
be more creative around that, and create some incentives to 
bring people in who might even be questionable in that area or 
in delayed fashion.
    I don't know. I just think that we need to certainly, and I 
appreciate the fact that you are saying we have to look at it. 
We can't just assume that it is going to all work out okay, 
especially when it comes to leadership, which is such a 
critical, critical need today.
    So I hope we can find a way to do that so a year from now 
we can sit here and have perhaps more data which suggests why 
what we are doing is working out fine; perhaps we should even 
change it and allow more people to come in perhaps on waivers 
or we need to cut back, because that is creating a problem.
    The issue that Dr. Snyder raises, if we are going to go to 
greater end-strength and clearly making the recruiting numbers 
becomes a far greater challenge that it even is today. And that 
means that we perhaps need to be even more creative and try and 
find better ways of trying to do this. The bottom line for us 
as we started is having dollars available when you need them to 
bring people in.
    I want to go to my colleagues, but I also wanted to in a 
minute or two just talk about some special needs categories 
that need to be addressed for the future.
    Mr. McHugh, do you want to ask a few more questions?
    Mr. McHugh. Yes. Sort of in the same vein you were in, I 
associate myself with what the chair just said. We have 
standards for a reason, and by and large they are good and they 
are something we should all strive to meet. When you don't meet 
them, the problem is that it brings into question the entire 
force, and that concerns me.
    We had a witness before the full committee very recently--
the name is irrelevant--that talked about the military in 
general, in this case the Army's inability to meet many of the 
pre-established standards--the 90 percent standard, for 
example, and others. And then said very flatly that recruit 
quality was diminishing dramatically, where we were even 
bringing in felons.
    That was his word, ``felons.'' He is certainly entitled to 
his opinion. His overall view was, I believe, that the military 
of today is stressed--certainly no argument there--stressed 
beyond its capabilities. And the quality of the men and women 
in uniform today was suspect. That part concerns me. I am not 
sure that was his intent, but certainly the words he said 
brought into question that.
    Just to kind of state it in a different way and put it on 
the record again, I would like to ask you gentlemen to state 
how you feel about the quality of the men and women overall 
that you are recruiting into the military today, and make a 
comment, if you will, about felons in terms of waivers if you 
have such a thing.
    I mean, generally when we talked about waivers, there is 
the medical waiver, there is the moral waiver, which by and 
large has to do with minor crimes, generally as a youth, 
whether it is an alcohol situation or some kind of truancy, 
vandalism, something like that.
    But are we admitting hardcore felons into the United States 
Army today? Did I miss something?
    Secretary Dominguez. Sir, I will start and then I think 
General Rochelle should pile on.
    But no, we exclude members of hate groups and gangs and 
those kinds of things. We have very well established procedures 
to exclude those. We don't recruit murderers and rapists and 
that kind of violent criminal.
    What amounts to a felony in the United States of America 
varies from state to state. So you can be arrested for what 
constitutes a felony for what many of us, in particular many 
years ago, would have thought would not amount to an act that 
would associate yourself with that word. But the drug business, 
in particular, has that, so the use of marijuana----
    Mr. McHugh. Mr. Secretary, forgive me for interrupting. 
When you say ``drug business,'' you meant--for example, the 
state of New York, we have something called the Rockefeller 
drug laws, where, at their extreme, small amounts for personal 
use, you are a felon and you go away for certain drugs for a 
long time.
    Secretary Dominguez. Right, right.
    Mr. McHugh. That is what you are talking--you are not 
talking about street sellers.
    Secretary Dominguez. No, I am not talking about guys who 
are in that business. I am talking about people who have been 
arrested or apprehended with narcotics or illegal substances. 
In some states, sir, that would classify as a felony.
    Now, the waiver process, and we need to understand this, is 
that it is a process that triggers in every case, in every 
service, a general officer to intervene and look at the whole 
person here, to consider input from coaches, pastors, parents, 
neighbors about the character of the individual, and to make an 
assessment about whether there is a potential. Kids at 17 make 
mistakes.
    They may make mistakes at 16. Today, some of those things, 
some of those mistakes in growing up--burglaries, right? You 
know, these are serious mistakes, but is it a mistake that 
ought to keep a kid away from a growth opportunity and 
professional development opportunity forever?
    What we would do, what our process does is trigger a 
general officer to get involved and make an informed judgment 
after considering all those people around him and say, you 
know, was that a mistake in a kid who other has potential to 
serve? Is there enough here that we want to make a bet on him 
and give him this person an opportunity to demonstrate their 
potential? That is what our waiver process does.
    In some cases, yes, kids have been picked up for burglary, 
kids who have been picked up for possession or use of 
controlled substances--yes, those people are brought in that 
net, but they are looked at and an individual judgment made by 
a general officer in every case.
    Mr. McHugh. But by and large, you are not admitting violent 
felons?
    Secretary Dominguez. Right. To my knowledge----
    Mr. McHugh. Physically violent felons.
    Secretary Dominguez. Right.
    General Rochelle, you are the expert here.
    General Rochelle. General Bostick is really the expert.
    General Bostick. Let me take that one.
    First, to answer your question directly, Congressman, on 
whether I am concerned about the quality. I am not. I think we 
have a high quality Army. I came into an Army almost 30 years 
ago where we had an issue with quality. But I am very 
comfortable with where we are at. I have served with many of 
these soldiers that General Rochelle brought in and that I am 
bringing in now. They are serving admirably.
    We did a study back in 2003, and I think we have to go back 
and take a look at something similar. To answer the question 
directly, we looked at the serious criminal misconduct. The 
vast majority of those that we bring in with waivers are 
misdemeanors. Last year, 86 percent were misdemeanors. The rest 
were in the area we call serious criminal misconduct.
    We did a study in 2003 to see if their behavior, their 
discipline problems, were any different from those that had not 
received a waiver, and they were essentially the same, really 
no different between the two of those. I would offer that we do 
that again. But when you look at the serious criminal 
misconduct, there are no hardened criminals here. There are no 
drug dealers, no sex offenders, none of those kinds of 
offenders are coming into our Army.
    I received an e-mail yesterday from an individual that we 
have to waiver. He started it off by saying, ``General Bostick, 
when I was eight years old I was in a barn with my friend who 
is 13, and he sprayed the WD-40 can and lit a match, and caused 
a fire.'' Many years later--now he is about 18 or 19--he 
thought this thing was completely done, that nothing happened. 
He was told by the judge that you will bake a cake with your 
mother, and that is your community service. Well, we have to do 
a waiver on him. That is arson, and we do a waiver on him.
    We had a sister and another sister, and one of them we had 
already signed up, and got into a fight. The parents called the 
police to stop the fight because one of the sisters had hit the 
other with a bat--aggravated assault. We had to do a waiver on 
her.
    We have had sexual misconduct. It sounds very serious, and 
he was charged--a 17-year-old having consensual sex with a 15-
year-old--not something we want to have happen, but now that he 
is many years removed from that incident, has he educated 
himself, has he worked in society, has he demonstrated that he 
deserves another chance?
    Those are the kind of serious criminal misconduct waivers 
that get raised to a general officer, either myself or my 
deputy, and we approve those. So I am very confident we have a 
solid process, but I would open it up, and have anyone come out 
and look at those that have had waivers, and see how they are 
doing.
    Corporal Vaccaro, killed in Iraq, in Afghanistan, 10th 
Mountain Division--he smoked marijuana for 20 to 30 times; he 
saved many, many soldiers and earned a Silver Star. Those are 
examples of the kind of soldiers that have been given a second 
chance, have demonstrated before that second chance opportunity 
that they had overcome any misgivings they had earlier in their 
life. So I feel very, very confident of it. But I do think we 
ought to look at it.
    Mr. McHugh. Well, I appreciate that.
    [Audience interruption.]
    Mrs. Davis. I am sorry. You will have to leave please. 
Please leave so we don't have to have somebody come in and take 
you out.
    Ms. Boyda. Ms. Boyda, go ahead.
    Mrs. Boyda. Thank you, Madam Chairman.
    Mr. McHugh. May I just make my closing comment? So I 
approve--and it will be right to you, Ms. Boyda. I apologize. I 
was interrupted by the lady.
    This is an important issue, and I think the idea of perhaps 
doing another study off your baseline as to what happens to 
these people on discipline versus non-waivered would be a good 
way to hopefully resolve many of these questions.
    And so, I don't believe either in the House or the Senate 
we have that in our base bill, and you probably are rather busy 
right now, but that kind of study I think would be a good idea. 
I will resist the temptation to ask how that fellow with the 
WD-40 lit the oven when he baked the cake, but thank you again 
for your service.
    Madam Chair, I yield back.
    Mrs. Davis. Thank you, Mr. McHugh.
    I would like us to, if you already don't have something in 
place, to begin to track some of that information anew with the 
greater number of waivers that we have in. It seems as if that 
would be something that would be desirable to do, and if you 
need us to help you out with that, please let us know.
    General Rochelle. If I may, Madam Chair, in our discussions 
of yesterday, this subject came up. As soon as I got back to 
the Pentagon, I had the individuals who are responsible to 
doing those types of studies in my office and we are going to 
undertake that longitudinally.
    Mrs. Davis. Okay. Thank you.
    Ms. Boyda.
    Mrs. Boyda. Thank you, Madam Chairwoman.
    I just had a few questions. They are a little bit just out 
of curiosity trying to learn some things here. The first one is 
about contractors. Do you feel like you are competing with 
contractors? Or does that ever play into the decision? That is 
my question. Do you feel like you are competing with 
contractors?
    Whoever would like this.
    Secretary Dominguez. Yes, ma'am. Let me start.
    Yes, largely in the retention area, and not just 
contractors for the armed forces, but lots and lots of people 
in American business are eager to get the talent that we 
produce because they have been brought in. They have 
demonstrated the ability to achieve against great odds and 
under great pressure. They have integrity. They show up for 
work on time. They are clean. They understand what the work 
ethic is all about. These are valuable employees anywhere, and 
that is the retention problem for us.
    In some cases and in some skills, you have contractors and 
we are creating our own competitors. We are looking at that and 
I wish it weren't so, but for the most part, we are holding up 
well. Attrition is not significantly greater. I just looked at 
this in the special operations business to see if we are 
hemorrhaging soft talent into the backwaters at all. And no, 
the attrition is really at the same levels it has been over 
several years.
    Mrs. Boyda. But you said that that would hold true for your 
captains and majors as well?
    Secretary Dominguez. In the mid-grades, as we talked about, 
in the Army in particular, because of the way they are growing 
and size that they are growing, we need to push retention 
levels for captains and majors beyond historical experience.
    Mrs. Boyda. Would anyone else care to comment on this?
    General Rochelle. I would, ma'am. Thank you for the 
opportunity.
    Mrs. Boyda. Really, this is something I hear about. It is 
just grumbles and these guys--and they are mainly guys--and 
women, but they are proud to serve in the military, and 
understand the difference between what they are doing and 
contracting. This is a commitment. They are proud to wear the 
uniform.
    General Rochelle. I would like to make three points, ma'am, 
in response to your question. The first is that going back to 
my earlier comments about the 50 percent category, 51 percent 
category in 1980. If you were to reexamine those same 
individuals one year later, they would not resemble the 
individual who was tested prior to having come into the Army.
    That is a testament to what the Army does for every single 
person who joins our force. So in response once again to Madam 
Chair's question about am I concerned about the four percent? 
Absolutely not. I think I would echo General Vaughn's comments 
as well.
    The second point is that, yes, indeed some of our high 
skills are particularly susceptible to contractors recruiting 
them right out of our ranks, because they can simply pay an 
awful lot more. As a result of that, some of our bonuses for 
special operators, since Mr. Dominguez raised that, are in the 
$150,000 retention range to officers.
    Mrs. Boyda. What level officers?
    General Rochelle. I beg your pardon?
    Mrs. Boyda. What level officers?
    General Rochelle. I am changing to officers. I wasn't 
referring to officers and that led--there was a transition. 
Forgive me.
    Mrs. Boyda. Okay. But you said $150,000 bonus to----
    General Rochelle. Special Forces sergeants, senior non-
commissioned officers.
    Now to the subject of officers, which was your other 
question. Most definitely our young officers who are supremely 
talented are able to operate without lots of direct supervision 
and are doing things today that far more senior officers would 
have done in years past. They are particularly attractive to 
contractors. They are aggressively, aggressively recruiting 
those young officers.
    We are responding--back again to Madam Chair's comments 
about innovation--we are responding innovatively, as you heard 
in Mr. Dominguez's opening comments, with the first-time ever a 
critical skills retention bonus for young captains, who will 
help us close the gap between the requirements of a modular 
Army and the year 2010, 2011, 2012 and 2013 by retaining them 
and offering them options, a menu of options, which would 
include branch of choice for newly commissioned officers; 
station of choice; and monetary incentive--graduate school 
being the fourth of the menu.
    It is largely in response to your question. Yes, they are a 
very attractive commodity; and two, we are trying to retain 
officers.
    Mrs. Boyda. Could I just ask, Madam Chairwoman, have we 
tipped a balance in contracting--the decision to contract--to 
where we have pushed that balance to where now it is a good 
option? Or is there something that we should start to push that 
balance? I understand it is very difficult when you are trying 
to recruit and now you have gotten yourself kind of in a 
corner, but do you feel like we have pushed that?
    We have defense contractors--God bless them--that I can't 
imagine anybody doing. You know, we contract out weapons 
systems. The Army doesn't do that themselves. We contract out 
all kinds of things. But I am talking about boots on the ground 
and our contractors that we are seeing.
    May I ask if you think that has that tipped to a point 
where it is becoming more and more problematic, and now we are 
going to have to keep, you know, upping the ante on both sides 
to keep up with that?
    General Rochelle. It is clear we must compete. We must be 
able to compete with the attractiveness of salaries and 
benefits that are offered outside. I believe the temptation and 
the pressures have always been there. I also believe that they 
are slightly greater today, not only as a consequence of 
broader contracting, but quite frankly the environment in which 
we find ourselves.
    Mrs. Boyda. All right. Any, you know, with this committee, 
any--again any suggestions that you have on what we can do to 
help you find that balance, or to do anything in that regard? 
It is certainly why we are here, and we have made some attempts 
at that in our Defense Authorization Bill. So whether in this 
committee or some way to help us do that. Thank you.
    Mrs. Davis. Thank you.
    Mr. Wilson, did you have a comment?
    Mr. Wilson. Yes. Thank you, Madam Chairman.
    I want to tell you another perspective that I have. I 
represent the initial recruit training facilities of Fort 
Jackson for the Army, Parris Island for the Marines. I want you 
to know that on my visits there, I have seen again the fruits 
of what you have done and how much it means for these young 
people with opportunity. Madam Chairman, I would like to invite 
any of our members, if you have the opportunity to visit the 
great state of South Carolina, you would truly be inspired.
    I was recently at Fort Jackson with General Steve 
Siegfried, who gave a welcoming induction to new recruits. He 
himself is a role model extraordinaire. He was a private. He 
rose all the way to be general, to be commanding officer of 
Fort Jackson. He is just a wonderful person and so dedicated.
    And then three weeks ago, I had the privilege of 
attending--and it was a multiple visit for me because every 
time I go, it is an inspiration--but at Parris Island, I was 
there for the graduation. And all of the male recruits east of 
the Mississippi, all of the female recruits in the United 
States, attend and participate in training at Parris Island. 
And you are there with the families, and they just could burst 
with pride. You are there with moms, dads, siblings, 
grandparents, aunts, uncles. I knew some from my community and 
it was an extraordinary cross section of America.
    So I want to thank you for what you do, because I see it as 
I visit throughout the district. Thank you and God bless you 
for your service.
    Mrs. Davis. Thank you, Mr. Wilson.
    Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chairman.
    I have several questions I will direct to each of you 
individually. General Bostick, I will ask this to you. I think 
it is in Secretary Dominguez's written statement. He talks 
about the number that are not even available for recruiting 
because of problems. Specifically, he says about 39 percent are 
medically disqualified, with obesity representing the largest 
contributing factor.
    So when the folks that come into your command then, there 
just aren't that many people that are overweight? Is that what 
happens? If a person is obese, we just don't recruit them?
    General Bostick. No, actually, Congressman, we have several 
innovative programs. One is called the ARMS Program, the 
Assessment of Recruiter Motivation and Strength. What this 
program does is, working with the psychiatrist, the doctors, 
our recruiters developed a way to test the motivation of an 
individual to determine if he is overweight, does he have the 
motivation to get through basic training.
    Dr. Snyder. Okay.
    General Bostick. So you can come in overweight and you can 
still pass the----
    Dr. Snyder. And of this number--this 39 percent that are 
disqualified with obesity representing the largest contributing 
factor, what percentage of obese men and women that want to get 
in are we letting in?
    General Bostick. I would have to get that number for the 
record for you. It is a small number that are involved in the 
ARMS program.
    [The information referred to can be found in the Appendix 
beginning on page 102.]
    Dr. Snyder. A small number.
    General Bostick. That we are bringing in, and the last time 
I looked at this, I will tell you that the one thing we did 
track very closely was to see how they attrited through basic 
training. Even though they came in about two percentage or 
three percentage points above body fat, they attrited at the 
same rate as those that had no waiver. But I can get the 
precise numbers on the ARMS program.
    Dr. Snyder. In the olden days in the Marine Corps, they 
would just let them in and them keep them in basic training 
until they actually got down to the weight of the rest of us, 
which I thought they were the bravest men I had ever seen that 
went through Marine Corps boot camp for six weeks trying to get 
down the weight.
    General Vaughn, I wanted to ask you, we have had 
discussions before, but you know there is a great interest in 
the Congress on dealing with this issue of GI bill for reserve 
component members who come back. My own view is that--and 
Secretary Dominguez and I have had this discussion before, 
too--but my view is that it would help overall recruiting if 
there was a clear message out there that if somebody came into 
the Guard or Reserve for a period of time and served overseas, 
came back and got out, that they would still be entitled to 
full GI bill benefits.
    Is that your feeling also?
    General Vaughn. Congressman, I couldn't agree more, and all 
the TAGs do also. You know, we don't see it as an incentive. We 
see it as a benefit and it ought to flow with them all the way 
through. I say we don't see it as incentive. Do you know what I 
am getting after?
    Dr. Snyder. I think what you are getting after is that I 
think it is the view of the Pentagon that if members can get 
out and still get out of the reserve component and still keep 
their educational benefit, that they might not have the 
incentive to stay in.
    My own view is that that is more than made up for this 
general sense that we treating people fairly and equitably and 
that the military is a place to go, the reserve component is a 
place to go for educational benefits whether you stay in or 
out; that it overall would help you to have a robust 
educational benefit.
    I know that with Senator Lincoln on this on the Senate side 
is interested in working on this. We already have the first 
step of dealing with that issue in our bill this year, although 
we still have to work out this issue of----
    General Vaughn. If I could for a second, because we really 
agree with that. There is a recruiting program that Mike and 
Tom and I are trying to work called Active First, where we 
would recruit active soldiers into the guard first, and then go 
on active duty for a small period of time. The big deal about 
that is you get the bonus up front, but you get the full 
Montgomery GI bill.
    And you know what? I mean, the TAGs are just overjoyed with 
this thing because now they come back, and as you well know, it 
is transferable to the spouses potentially a little further 
down. If you put that with the state pieces of this, this 
amounts to something for the entire family.
    Dr. Snyder. And it amounts to something for the entire 
country, because whether they are in or out of the service, it 
can have dramatic effects.
    My third question is, and I have asked before about this 
issue, about a glide path for the increased active duty number. 
I think Secretary Gates at one point in a moment of candor, as 
he is prone to do, and much appreciated, he said, ``I think we 
chose that number because I was told that is what we felt we 
could recruit.'' Which is probably not the best way to do 
foreign policy, and if we think we need to go to 20,000 or 
30,000 a year, then that is probably what we need to do.
    General Rochelle, have you gotten any downstream comments 
as this number is going up where--are you getting feedback 
that, wait a minute, that is a maximum number that we can have 
because we don't have barracks set up at our recruit depots; we 
don't have the ability to train these young men and women and 
they are coming in as this number goes up; or do you think that 
the system can handle substantially more numbers of new 
recruits if there was a fairly dramatic increase?
    General Rochelle. Sir, there would clearly be a need to 
look at the total infrastructure costs.
    Dr. Snyder. Does anybody look at that on an ongoing basis? 
I would assume you would have to be looking at that. I mean, we 
could wake up tomorrow morning--God forbid--and have a major 
foreign policy crisis in which everyone would look around and 
say, yes, we need 100,000 troops by next Tuesday.
    I assume that you all have studies that would deal with 
that. Is that an ongoing look?
    General Rochelle. We have begun to take a look at that 
requirement should it occur. However, my comment was that we 
are looking at the infrastructure requirements for the current 
rate of growth.
    Dr. Snyder. For the current rate.
    General Rochelle. Yes, sir, absolutely, most definitely.
    Dr. Snyder. Is that a report that will be coming to 
Congress? Is that an in-house thing? Or is there going to be 
some kind of formal document that you can share with us when it 
comes out?
    General Rochelle. Sir, I am not aware of a report headed 
this way to Congress, but I will take that for the record and 
we will respond back.
    [The information referred to can be found in the Appendix 
beginning on page 102.]
    Dr. Snyder. Because I would assume that if it says we need 
more barracks, you would want us to know about it.
    General Rochelle. Yes, sir.
    Dr. Snyder. Thank you.
    Thank you all for the work you do.
    Mrs. Davis. Thank you, Dr. Snyder.
    I wanted to turn to the issue of recruiting at schools, 
because I think when you go into communities, this is one of 
the issues that is raised. I am wondering if there is a hotline 
or a complaint line or some way in which if parents are 
concerned, students are concerned, that they can call and say, 
you know, I am being harassed or I am uncomfortable with what 
is happening.
    Does that exist in some communities? Or where are we even 
in thinking about that kind of opportunity for people to try 
and express themselves in that way?
    General Rochelle. Let me respond to that if I may, Madam 
Chair. Since the high school ASVAB testing program is a 
Department of Defense-wide program used by all service 
recruiters, including the Coast Guard, I might add, I can only 
answer for the Army. I can tell you that I have no capability 
for a hotline. We have no hotline established for parents who 
may be feeling a little bit harassed by recruiters.
    Mrs. Davis. Any thoughts about whether that is something 
that would be helpful?
    General Rochelle. I will be happy to take a look at that.
    Secretary Dominguez. If I might----
    Mrs. Davis. I guess we serve as his hotline. I think the 
congressional offices in some ways serve as a hotline. Someone 
should serve as a hotline.
    Secretary Dominguez. Well, that is where I was going. I 
think the hotline, there are 435 of them.
    Mrs. Davis. Right.
    Secretary Dominguez. But I think I would like General 
Bostick to really talk some about that interface with the 
community, if you could, and how you manage that to ensure that 
our recruiters stay on the right side of the line and make sure 
that parents are apprised of their rights to say, ``No, I don't 
want this information presented to my children.''
    Mrs. Davis. I ask this partly because, as you know, there 
is concern in some communities to have a kind of opt-in, as 
opposed to an opt-out provision so that families who don't want 
to be contacted and know that up front can state that clearly 
at the beginning of the school years.
    In many schools, most schools I think, there is that 
opportunity, but there is a concern that in fact that either 
people don't get the word, they don't understand it, there are 
lot of other things going on at the beginning of the year, and 
so they don't actually activate that provision.
    So there is a push in some communities to do just the 
opposite, which I know would be very problematic. I am not 
suggesting that that is the right course to take, but I am 
concerned that we hear repeated, and we do because we are 
actually the hotline of how we can deal with that.
    So in that spirit, I am just trying----
    General Bostick. While we may not have a hotline, my 
judgment is that the parents know how to reach us. They reach 
us through the chain of command. Generally, there is a 
recruiter that is making contact at the home or at the school. 
If they have concerns, they know how to call us either through 
their child, or if they go to a website.
    They use the web very frequently and they are able to get 
my e-mail and a number of these will come directly to me. But 
generally, they engage with the chain of command. I don't know 
if that works for all parents out there, but it works for many 
because I can tell you I have received those first-hand.
    In terms of the way ahead, as I look at the No Child Left 
Behind Act and what it does for us or does not, one of the 
challenges that we have is this friction between the recruiters 
and the school, in some cases not in all, certainly. But the 
friction is caused by a lack of any structure in terms of when 
the high school lists are provided, what the timeline is for 
that, what the format is, whether it ought to be automated or a 
stack of papers.
    I think clarity in how that is done at the local level is 
what we work on. We do that through the superintendents, 
through the principals, and through our recruiters. The last 
thing we want is an adversarial relationship. We just want to 
have the opportunity to have access and to talk to the 
individual and give them the opportunity. This is a volunteer 
Army and we would like to keep it that way. We are not going to 
force anyone to come into the military.
    General Rochelle. May I comment on the opt-in versus opt-
out? As we have already established, access is the primary 
challenge that we have today. It would be, in my opinion--and I 
think you have alluded to this in your comment--it would be 
absolutely devastating for an opt-in versus an opt-out.
    Already, as General Bostick has stated, and I know that any 
leader at this table can attest to this, already we are 
challenged with a lack of consistency in terms of receiving 
access to high school lists, ASVAB lists, et cetera, the way in 
which they are received, et cetera.
    In order to move now from an opt-out procedure, which is 
the current one--and I know there are some circles where people 
believe that we should move to an opt-in, that means it is 
withheld unless you by commission opt in, would not be good. 
That would further restrict access.
    Mrs. Davis. Thank you.
    Could you please just share with us what are some of the 
special needs categories that you have? And are bonuses working 
in that regard to help to supplement, certainly, the needs that 
are out there? Where are they? And what is being done to 
recruit those individuals?
    General Rochelle. If I may, I would like to provide for the 
record a more thorough answer to your question, but I can give 
you some tidbits if you will to address your interest.
    We apply bonuses for several reasons, not just to address 
specific needs, but the way in which we apply bonuses to 
special skills also helps us shape the future force.
    For example, if we have too many soldiers--and Congressman 
Wilson addressed the adjutant general corps as an example, and 
I wouldn't address judge advocate general necessarily--but if 
we had more individuals in those skills and those are easily 
acquired skills, then we would shift our bonus weight--meaning 
amount--to other areas where we are having to grow capacity in 
the future Army in the next two, three, four, five or even ten 
years, if we can see that far.
    We are doing that. We are using our bonuses not only to 
help entice individuals who might otherwise be teetering on the 
question of service, but also to shape the force. We are 
growing requirements in the logistics field, and our bonuses 
reflect that, the bonus amounts and the terms of service 
associated therewith.
    We are also growing in the military intelligence field, and 
our bonuses reflect that. Those are hard to acquire skills. 
They require the capability to pass massive security screens 
for security clearances and the like.
    Those are some examples. I would like to submit a more 
thorough response in writing for the record, if I may.
    [The information referred to can be found in the Appendix 
beginning on page 101.]
    General Bostick. If I could follow up, one of the areas 
that I work very closely with our team is the medical 
recruiting. We have been challenged here with our doctors and 
our nurses and our dentists, on both the active and the reserve 
side. You all have helped with some of that.
    Next year in the bill I understand there is a two-year 
mandatory service obligation for some of these critical skills, 
so that the doctors and dentists can come in, do their service, 
and then move on with their careers wherever they are in the 
country. Also within that bill are some significant bonuses for 
doctors, dentists and others.
    We have made some headway. We work very closely with 
General Pollock on the nurses. We have made some headway there, 
but in this area as well, we have to reach out. Access is 
important to the medical community, the universities and the 
leaders out there, for them to understand the challenges that 
we face and the need for them to step forward as well.
    Mrs. Davis. Thank you.
    I understand that, as you mentioned nurses, that there was 
a recent bonus that was approved for nurses. Is that being 
utilized?
    General Bostick. The nurse program actually is moving 
upward. We came in the year last year about 78 percent of the 
mission accomplishment. We think we are going to finish at 
about 96 percent. So the focus by Major General Pollock and her 
team in assisting us out in the field, and my recruiters on the 
medical side has helped to move that in the right direction.
    Mr. James just had a summit in Washington State where he 
brought in a lot of educators just to focus on nurses and what 
can we do to help move forward in nurses, because America is 
having a challenge in nurses as well.
    Mrs. Davis. Let me just understand. There is an incentive 
pay--has that been funded yet?
    General Rochelle. Nurses are included in the critical 
skills, the Office of Critical Skills retention bonus that I 
alluded to earlier. We are hopeful that we will have that 
program activated and out there before the end of this month, 
August.
    Mrs. Davis. Okay, so we can assure folks in that area that 
that should be out there. When you say ``out there,'' that 
means that it would be advertised?
    General Rochelle. Actually, it was advertised, and because 
of some reviews that we had to conduct subsequent to it, and 
some modifications that we are making to it, frankly to make it 
even more attractive, we had to hold it back just a little bit. 
We are beyond that now and we expect that before the end of 
this month it will be advertised and fully available.
    Mrs. Davis. Okay. Thank you. We will look for that on the 
first of the month.
    General Rochelle. Yes, ma'am.
    Mrs. Davis. You are talking about September first. Is that 
right?
    General Rochelle. Yes, ma'am.
    Mrs. Davis. Okay. Great. Thank you.
    The other issue that I think is difficult to think about 
and talk about when we talk about recruiting is ``don't ask, 
don't tell.'' The number 41,000 has been the number that is out 
there in the public of the number of male recruits, male 
applicants who would be available to enter the armed services 
if that were to be repealed. I know you are going to tell me 
that ``that is the law, ma'am,'' and I appreciate that. That is 
the law today.
    But do you think that the Congress ought to be taking a 
look at this so that we can understand if there is a skill we 
need or just general need to include all those who wish to 
serve in the services, and if there is a way that we might take 
another look at that issue. It has been a great number of years 
since that law was passed.
    Secretary Dominguez. Ma'am, if I might start. The first, 
is, people who believe themselves to be homosexuals can serve 
in the armed forces of the United States. The law is about 
conduct. So anyone who wants to serve who meets these criteria, 
may serve in the United States. The issue is around conduct.
    In terms of numbers of discharges by virtue of violations 
of the law around conduct, in the last 5 years that has 
amounted to about 700 people a year, which compared to about 
30,000 to 40,000 people who leave the armed forces of the 
United States under involuntary separations for a whole range 
of other reasons.
    So we bring in a bunch of people and we have to discharge 
ahead of schedule in the neighborhood of 30,000 to 40,000 a 
year, about 700 a year on average for the last 5 years is 
because of violations of the law around homosexual conduct. 
That is not a big number. It is not a high-leverage place in 
terms of generating populations to serve in the armed forces.
    Mrs. Davis. If those were in high-skill areas, is that an 
issue? I understand what you are saying about conduct. I think 
there is probably some question about how that is interpreted. 
I think the concern here is whether or not there are people who 
may not even think about serving, who would like to serve 
because they somehow don't feel welcome in the services.
    I think that is an issue that in a time that we need to be 
as open as possible and look to other services, other countries 
that we work with on an ongoing basis, whether or not we have 
reached a point where we should take a look at that, where 
Congress ought to be asking some of those questions. 
Operationally, I am just asking you whether you think this is 
something that we ought to be asking, we ought to be taking 
another look at.
    Secretary Dominguez. Ma'am, it is our responsibility and 
leaders everywhere in the chain of command to ensure that any 
citizen of the United States who qualifies for entry into the 
armed forces is welcomed there and feels welcomed there. We 
have invested a lot of time doing that.
    In this particular case, stemming from some real tragedies 
in the 1990's, we have invested a lot of time to make sure the 
climate is right and that people can serve, serve honorably, 
and feel welcomed and appreciated for their service so long as 
they comply with the law around the conduct in this case.
    Mrs. Davis. I appreciate your comments. Like everything, we 
want to look to data on that. I think it is important to try 
and be as informed as possible. So I appreciate your comments.
    Mr. Snyder, did you have any other questions?
    I am sorry. Mr. McHugh, are you done? Okay.
    Dr. Snyder.
    Dr. Snyder. I am done now. Thank you.
    Mrs. Davis. Okay. Great.
    I want to thank you all for being here. I think that our 
concern is having a number of tools in the toolbox to work with 
the issue of recruiting and to have plans in place if in fact, 
as Dr. Snyder I think raised the question, that if in fact end-
strength was even increased beyond our plus-ups that we are 
looking at now, and if we have the ability to do that, and to 
be able to create an environment where many of the challenges 
that we see today perhaps we can deal with constructively.
    We would be interested in working with you on that, being 
certain that the bonuses that are available are utilized, and 
certainly in a timely fashion, and of course we go back to the 
idea of getting all of our recruiting and retention issues 
within base pay, within the basic budget so that we do not have 
to rely on supplements in the future, as we have.
    Thank you very much. I appreciate your being here.
    [Whereupon, at 4:37 p.m., the subcommittee was adjourned.]


======================================================================


                            A P P E N D I X

                             August 1, 2007

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             August 1, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 38421.001
    
    [GRAPHIC] [TIFF OMITTED] 38421.002
    
    [GRAPHIC] [TIFF OMITTED] 38421.003
    
    [GRAPHIC] [TIFF OMITTED] 38421.004
    
    [GRAPHIC] [TIFF OMITTED] 38421.005
    
    [GRAPHIC] [TIFF OMITTED] 38421.006
    
    [GRAPHIC] [TIFF OMITTED] 38421.007
    
    [GRAPHIC] [TIFF OMITTED] 38421.008
    
    [GRAPHIC] [TIFF OMITTED] 38421.009
    
    [GRAPHIC] [TIFF OMITTED] 38421.010
    
    [GRAPHIC] [TIFF OMITTED] 38421.011
    
    [GRAPHIC] [TIFF OMITTED] 38421.012
    
    [GRAPHIC] [TIFF OMITTED] 38421.013
    
    [GRAPHIC] [TIFF OMITTED] 38421.014
    
    [GRAPHIC] [TIFF OMITTED] 38421.015
    
    [GRAPHIC] [TIFF OMITTED] 38421.016
    
    [GRAPHIC] [TIFF OMITTED] 38421.017
    
    [GRAPHIC] [TIFF OMITTED] 38421.018
    
    [GRAPHIC] [TIFF OMITTED] 38421.019
    
    [GRAPHIC] [TIFF OMITTED] 38421.020
    
    [GRAPHIC] [TIFF OMITTED] 38421.021
    
    [GRAPHIC] [TIFF OMITTED] 38421.022
    
    [GRAPHIC] [TIFF OMITTED] 38421.023
    
    [GRAPHIC] [TIFF OMITTED] 38421.024
    
    [GRAPHIC] [TIFF OMITTED] 38421.025
    
    [GRAPHIC] [TIFF OMITTED] 38421.026
    
    [GRAPHIC] [TIFF OMITTED] 38421.027
    
    [GRAPHIC] [TIFF OMITTED] 38421.028
    
    [GRAPHIC] [TIFF OMITTED] 38421.029
    
    [GRAPHIC] [TIFF OMITTED] 38421.030
    
    [GRAPHIC] [TIFF OMITTED] 38421.031
    
    [GRAPHIC] [TIFF OMITTED] 38421.032
    
    [GRAPHIC] [TIFF OMITTED] 38421.033
    
    [GRAPHIC] [TIFF OMITTED] 38421.034
    
    [GRAPHIC] [TIFF OMITTED] 38421.035
    
    [GRAPHIC] [TIFF OMITTED] 38421.036
    
    [GRAPHIC] [TIFF OMITTED] 38421.037
    
    [GRAPHIC] [TIFF OMITTED] 38421.038
    
    [GRAPHIC] [TIFF OMITTED] 38421.039
    
    [GRAPHIC] [TIFF OMITTED] 38421.040
    
    [GRAPHIC] [TIFF OMITTED] 38421.041
    
    [GRAPHIC] [TIFF OMITTED] 38421.042
    
    [GRAPHIC] [TIFF OMITTED] 38421.043
    
    [GRAPHIC] [TIFF OMITTED] 38421.044
    
    [GRAPHIC] [TIFF OMITTED] 38421.045
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             August 1, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 38421.046
    
    [GRAPHIC] [TIFF OMITTED] 38421.047
    
    [GRAPHIC] [TIFF OMITTED] 38421.048
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             August 1, 2007

=======================================================================

      
            QUESTIONS SUBMITTED BY MRS. DAVIS OF CALIFORNIA

    Mrs. Davis. Could you please just share with us what are some of 
the special needs categories that you have? And are bonuses working in 
that regard to help to supplement, certainly, the needs that are out 
there? Where are they? And what is being done to recruit those 
individuals?
    General Rochelle. The following specialties are considered critical 
needs: Special Forces, Field Artillery, Air Defense Artillery, 
Aviation, Communications and Information Systems Operations, Medical, 
Transportation, and Supply and Services. These Military Occupational 
Specialties are targeted to fill critical skills, which results in 
increased unit readiness and capability to meet operational and 
mobilization requirements.
    Targeted bonuses have been an effective management tool in 
attracting quality recruits into these skills and permitting the Army 
to shape the force to meet our mission requirements. It is essential 
that the Army remains competitive with the other services and with 
other civilian alternatives. A strong incentives package supports the 
Army's ability to attract the best talent available. Therefore, it is 
imperative to review the maximum bonus amounts annually to ensure the 
incentives keep pace with inflation.
    The Regular Army implemented the $40K enlistment bonus program. The 
previous enlistment bonus ceiling for the Regular Army was $20K. The 
Army Reserve and Army National Guard implemented the $20K non-prior 
service (NPS) enlistment bonus. The previous non-prior service (NPS) 
maximum for the Reserve Components (RC) was $10K. Statutory authority 
was also approved for an inter-service transfer bonus of $2.5K. The 
Army used the existing bonus authorities in the latter part of FY07 by 
increasing quick ship bonuses in critical skills.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCHUGH
    Mr. McHugh. General Rochelle, you tell me it is $155 million for 
direct payment to there. That leaves about $700 million that the 
reprogramming request seeks to move out of active Army personnel 
accounts. Yes?
    Well, you are wrong. It is $845 million, and I hate to be the 
bearer of bad tidings here, but that is the problem. I don't know, 
maybe the Administration has given us bad figures or they are giving 
you bad figures, but somebody has bad figures here.
    Secretary Dominguez. The Army reprogrammed $845M in FY07 from MPA 
($790.9M from BA2, Enlisted Pay and Allowances and $54.1M from BA4, 
Subsistence in Kind). From the $845M, $690M went to the National Guard 
and $155M went to the Air Force to return a FY05 transfer. The reason 
for the excess in MPA was due to overestimating the RC mobilization for 
FY07. The Army's supplemental budget request assumed that an average of 
86,700 Reserve Component soldiers would be mobilized over the course of 
the fiscal year, including additional RC mobilization pay for forces 
extended or deployed in support of the theater plus-up/surge. The 
latest estimate is that an average of 71,900 RC soldiers will be 
mobilized. This under execution is due primarily to fewer RC personnel 
mobilized in support of the surge than projected, mobilization of other 
Service personnel in lieu of Army, and delayed mobilizations due to the 
Secretary of Defense policy on Utilization of the Total Force.
    The funding for recruiting and retention for FY07 was sufficient. 
In FY07, the Army has exceeded the year to date (YTD) mission at all 
times, and made the monthly recruiting goal in all months except May 
and June. The shortfall in May and June was unexpected, and the Army 
began to increase recruiting incentives in anticipation of a continued 
shortfall in the remaining 4th Quarter FY07. The new incentives have 
been a success, as the shortfall expected for July through August never 
materialized. However, since all enlisted bonuses are paid to recruits 
when they arrive at their first active duty unit, all recruits who 
enlisted in the 4th Quarter will not receive their bonuses until FY08.
    Therefore the excess money in FY07 MPA (from the overestimate of 
the RC mobilization) could not have been used for new recruiting 
incentives, such as the Quick Ship Bonus, which was not offered until 
the 4th Quarter in FY07.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. I hate to jump back into the discussion that Mr. McHugh 
was having because there is a lot of money and there are a lot of dates 
and it is kind of confusing to all concerned.
    We have the issue of reprogramming that is going to get us to the 
end of this fiscal year, and then we have the issue of what is it going 
to take in 2008.
    Do you have both of those numbers?
    General Vaughn. The Omnibus reprogramming action required for the 
ARNG for FY07 in recruiting and retention and bonuses is $233 million 
in National Guard Pay and Allowance and $227M in Operations accounts. 
In FY08 to reach the OSD funded end strength level of 351.3K it will 
require a total of $1.8B. This breaks out to a base budget of $651M and 
$1.2B in Supplemental dollars.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SNYDER
    Dr. Snyder. What percentage of obese men and women that want to get 
in are we letting in?
    General Bostick. For the year 2006, 968 Soldiers came in the Army 
with an ARMS waiver. From January through April 2007, the most current 
data we have, 705 men and women have come in with the ARMS waiver. For 
the Army Reserves the figures are 148 for 2006 and 114 for 2007 
(January through April); and for the National Guard 280 for 2006 and 15 
for 2007 (January through April).
    Dr. Snyder. Do you think that the system can handle substantially 
more numbers of new recruits if there was a fairly dramatic increase?
    General Rochelle. The Army conducts an in-depth analysis annually 
of the equipment, manpower, infrastructure and training support systems 
required to train the recruiting mission during the Structure Manning 
Decision Review. The analysis addresses the volume and flow of Army 
Trainees and the infrastructure requirements needed to train them at 
each installation.
    The Army uses the Training Resource Arbitration Panel to analyze of 
the impacts to equipment, manpower, infrastructure and training support 
systems based on changes to the Army's Accession Plan in the execution 
year.
    The Army is currently conducting the (TATC) study to identify the 
operations and infrastructure requirements for the Army's individual 
training. The Army's Training and Doctrine Command (TRADOC) is 
responsible for analyzing the Initial Military Training (IMT) for 
officer and enlisted Soldiers at 33 military schools and five training 
centers and is using the FY 2009 Army Program for Individual Training 
as the basis for analysis.

                                  <all>

</pre></body></html>
